APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Argued November 25, 2019

Decided January 10, 2020

No. 18-7193
IN RE: AIR CRASH OVER THE SOUTHERN INDIAN OCEAN
ON MARCH 8, 2014,
ELIZABETH SMITH, AS PERSONAL REPRESENTATIVE OF
THE SPOUSES, NEXT OF KIN, OTHER STATUTORY
BENEFICIARIES, AND THE ESTATES OF THE MH370
PASSENGERS (SEE COMPLAINT FOR STATUTORY
BENEFICIARIES), ET AL.,
APPELLANTS
v.
MALAYSIA AIRLINES BERHAD, DOING BUSINESS AS
MALAYSIA AIRLINES, ET AL.,
APPELLEES
Consolidated with 18-7195, 18-7196, 18-7197, 18-7198
Appeals from the United States District Court
for the District of Columbia
(No. 1:16-mc-01184)
Stephen F. Rosenthal argued the cause for appellants
Thomas C. Gaspard, et al. With him on the briefs was
Floyd A. Wisner.
(1a)

2a
Caitlyn E. Hubbard argued the cause for appellant
Thomas Wood. With her on the briefs were Marianne M.
Auld and Hugh G. Connor II.
Mary Schiavo was on the brief for appellants Elizabeth Smith, et al. Jodi W. Flowers entered an appearance.
Eric B. Wolff argued the cause for appellees. With him
on the joint brief were Gregory F. Miller, Telly Andrews,
and Richard A. Walker. Eric J. Rhine entered an appearance.
Before: WILKINS and RAO, Circuit Judges, and
RANDOLPH, Senior Circuit Judge.
Opinion for the Court filed by Circuit Judge RAO.
RAO, Circuit Judge: This appeal arises out of the unexplained disappearance of Malaysia Airlines Flight
MH370 somewhere over the Southern Indian Ocean in the
early hours of March 8, 2014. A series of extensive
searches and investigations conducted over more than
four years yielded no definitive answers as to the cause of
this tragedy, and all passengers and crew members on
board the flight are presumed dead. Representatives of
many of the passengers filed lawsuits in the United States
asserting, inter alia, Montreal Convention claims against
Malaysia Airlines Systems Berhad, Malaysia’s national
airline at the time of Flight MH370, its current national
airline, Malaysia Airlines Berhad, and the airlines’ insurers, as well as state law products liability and wrongful
death claims against Boeing, which manufactured the aircraft in question in Washington state.
Those lawsuits were centralized into a multidistrict litigation in the United States District Court for the District
of Columbia and coordinated for pretrial purposes. Appellees moved jointly to dismiss for forum non conveniens

3a
and the district court granted that motion in full, concluding that Malaysia is a more convenient forum to hear all of
the appellants’ claims. While the Court has great sympathy for the victims of this tragedy and their families, we
cannot disregard the narrow standard governing our review in this case. We conclude that the district court did
not clearly abuse its discretion in dismissing appellants’
lawsuits for forum non conveniens and affirm the decision
in full.
I.
The district court’s opinion recounts the factual history
surrounding Flight MH370’s disappearance and the ensuing investigations in detail. See In re Air Crash Over S.
Indian Ocean, 352 F. Supp. 3d 19 (D.D.C. 2018). We will
therefore focus only on the facts pertinent to this appeal.
Malaysia Airlines Flight MH370 disappeared en route
from Kuala Lumpur International Airport in Malaysia to
Beijing, China, early in the morning on March 8, 2014. On
board Flight MH370 were 227 passengers and 12 Malaysian crew members. The 227 passengers were of 14 nationalities, including 152 Chinese citizens, 38 Malaysian
citizens, and 3 United States citizens. The aircraft in question was a Boeing 777-2H6ER that was designed and manufactured at Boeing’s facility in Washington state and delivered to the airline in new condition in May 2002.
An extensive search for the missing aircraft ensued following the plane’s disappearance. The search team ultimately concluded that Flight MH370 likely crashed in the
Southern Indian Ocean after running out of fuel, but neither the plane nor other critical pieces of evidence, such as
the cockpit voice recorder and flight data recorder, were
recovered. In addition to the search for physical evidence,
the Malaysian government took the lead on a separate civil
investigation into why Flight MH370 had disappeared.
This investigation culminated in a 449-page report, which

4a
concluded that while the investigation team was “unable
to determine the real cause for the disappearance of
MH370,” human interference or error were more likely
the cause of the plane’s disappearance than aircraft or system malfunction. In connection with this investigation and
a related criminal investigation, the civil investigation
team and the Malaysian government conducted numerous
interviews of witnesses located in Malaysia, including airline employees, family members and acquaintances of the
Malaysian crew, air traffic controllers, cargo shippers, and
Malaysian investigators.
At the time of Flight MH370’s disappearance, Malaysia Airlines Systems Berhad (“MAS”) served as the national airline of Malaysia and the Malaysian government
held a direct, controlling stake in the company. After the
crash, the Malaysian government enacted the Malaysian
Airline System Berhad (Administration) Act 2015 (“Act
765”). Act 765 incorporated a new, separate entity—Malaysia Airlines Berhad (“MAB”)—as the new Malaysian
national airline, transferred MAS’s assets to MAB, and
placed MAS under administration. Under the explicit
terms of Act 765, MAB is not a successor corporation to
MAS and has not assumed any of MAS’s liabilities related
to Flight MH370.
Beginning in early 2016, a total of forty lawsuits related to Flight MH370’s disappearance were filed in various federal district courts across the United States, and
the Judicial Panel on Multidistrict Litigation transferred
them to the District of Columbia district court for pretrial
proceedings. The various plaintiffs, all legal representatives or beneficiaries of decedents, divided into two groups
in the proceedings below, one represented by Podhurst
Orseck, P.A. and Wisner Law Firm, P.C. (the “Podhurst
Appellants”), and another represented by Motley Rice
LLC and Spagnoletti & Co. (the “Motley Rice Appellants”). The parties are largely the same on appeal, except

5a
that one appellant, Thomas Wood, now proceeds individually. Appellant Wood is a U.S. citizen and resident suing
on behalf of his deceased brother, Philip Wood, a U.S. citizen who was living in Malaysia at the time of Flight
MH370.1
Following more than a year of court-ordered discovery
on various threshold issues, appellees filed a joint motion
to dismiss under the doctrine of forum non conveniens.
MAS/MAB also sought dismissal on other threshold
grounds, including sovereign immunity under the Foreign
Sovereign Immunities Act (“FSIA”) and lack of subject
matter jurisdiction under the Montreal Convention. Relying on the Supreme Court’s decision in Sinochem International Co. v. Malaysia International Shipping Corp., the
district court declined to reach the jurisdictional challenges and instead dismissed on the basis of forum non
conveniens. In re Air Crash Over S. Indian Ocean, 352 F.
Supp. 3d at 35 (citing 549 U.S. 422, 425 (2007)). This timely
appeal followed.
II.
A party seeking dismissal for forum non conveniens
bears the burden of showing both (1) that an adequate alternative forum is available to hear the dispute, and (2) if
so, that the balance of certain public and private interest
factors strongly counsels in favor of trying the dispute in
the alternative forum. See, e.g., Agudas Chasidei Chabad
of U.S. v. Russian Fed’n, 528 F.3d 934, 950 (D.C. Cir.
Numerous civil cases arising out of Flight MH370’s disappearance are also pending in Malaysia. Seventy-seven of the eighty-eight
decedents represented in the legal actions that comprise this litigation
are also represented in cases pending in Malaysia. Boeing has not
been named as a party to any of the Malaysian suits to date, but Boeing has consented to the jurisdiction of the Malaysian courts and
agreed to make all relevant evidence available in Malaysia as a condition of dismissal for forum non conveniens.
1

6a
2008). The Supreme Court has instructed that “[t]he forum non conveniens determination is committed to the
sound discretion of the trial court.” Piper Aircraft Co. v.
Reyno, 454 U.S. 235, 257 (1981). So long as the district
court “has considered all relevant public and private interest factors, and … its balancing of these factors is reasonable,” we must afford that decision “substantial deference” and will overturn only if we find a “clear abuse of
discretion.” Id. Under this narrow standard, we find no
basis to reverse the district court’s reasoned decision.
First, the district court did not abuse its discretion
when it concluded that Malaysia is an adequate, available
forum for appellants’ Montreal Convention and state law
products liability and wrongful death claims. Only the
Motley Rice Appellants directly challenge this determination on appeal. They argue that the Malaysian government “has demonstrated clear intent to, and did, deprive
[appellants] of any real adequate and available forum in
Malaysia” through its enactment of Act 765, which transferred all of MAS’s assets to MAB without deeming MAB
a successor entity to MAS. For the first time on appeal,
the Motley Rice Appellants also contend that Malaysian
law would provide such insignificant damages for appellants’ tort claims against Boeing that forcing appellants to
try those claims in Malaysia would “obliterate[] any real
likelihood of trial.”
We agree with the district court that the enactment of
Act 765 does not render Malaysia an inadequate forum. As
the district court explained, MAS appears to have an insurance policy that would apply to appellants’ Montreal
Convention claims—and even assuming Act 765 did render MAS judgment proof, a U.S. forum would not provide
any greater likelihood of redress. Moreover, because the
Motley Rice Appellants failed to raise any challenge to the
adequacy of tort damages under Malaysian law before the
district court, those arguments are forfeited. See Gov’t of

7a
Manitoba v. Bernhardt, 923 F.3d 173, 179 (D.C. Cir. 2019)
(“Absent exceptional circumstances, a party forfeits an argument by failing to press it in district court.”).
In any event, in the context of a forum non conveniens
inquiry, “a foreign forum is not inadequate merely because
it has less favorable substantive law.” Agudas Chasidei
Chabad, 528 F.3d at 950 (citation and quotation marks
omitted); accord Piper Aircraft, 454 U.S. at 247 (“The possibility of a change in substantive law should ordinarily not
be given conclusive or even substantial weight in the forum non conveniens inquiry.”). Where, as here, it appears undisputed that an alternative forum would provide
a plaintiff at least some remedy, a district court acts within
its discretion in deeming that forum an adequate alternative to a U.S. court. See, e.g., Piper Aircraft, 454 U.S. at
254 n.22 (explaining that a forum will only be deemed inadequate “[i]n rare circumstances … where the remedy
offered by the other forum is clearly unsatisfactory,” such
as “where the alternative forum does not permit litigation
of the subject matter of the dispute”).2
Nor did the district court clearly abuse its discretion in
concluding that the balance of relevant public and private
interest factors weighs heavily in favor of trying appellants’ cases in Malaysia. The relevant public interest factors include, inter alia, the “‘administrative difficulties’
when ‘litigation is piled up in congested centers,’” the “‘local interest in having localized controversies decided at
In his discussion of the public interest factors governing the forum non conveniens analysis, Appellant Wood argues that his difficulty in securing the counsel of his choice in Malaysia “casts doubt on
whether Malaysia constitutes an adequate, alternative forum.” Neither Wood nor any of the Podhurst Appellants raised this argument
in the proceedings below. Thus, to the extent this passing reference
can be construed as a standalone challenge to Malaysia’s adequacy as
an alternative forum, that challenge has been forfeited. See Manitoba, 923 F.3d at 179.
2

8a
home,’” and the desire to avoid requiring a court to “‘untangle problems in conflict of laws, and in law foreign to
itself.’” Shi v. New Mighty U.S. Tr., 918 F.3d 944, 952
(D.C. Cir. 2019) (quoting Gulf Oil Corp. v. Gilbert, 330 U.S.
501, 508–09 (1947)). The private interest analysis, on the
other hand, focuses on “‘the relative ease of access to
sources of proof,’” the costs and procedural mechanisms
required to secure the attendance of witnesses, and “‘all
other practical problems that make trial of a case easy, expeditious and inexpensive.’” Id. at 950 (quoting Gilbert,
330 U.S. at 508).
The district court found that Malaysia’s public interest
in hearing claims arising out of Flight MH370’s disappearance far outweighs that of the United States, even as to
the tort claims asserted against U.S.-based manufacturer
Boeing. The district court further held that the private
interest factors tilt strongly in favor of trying these cases
in Malaysia, given the overwhelming amount of evidence
and witnesses located in Malaysia and the potentially insurmountable challenges that would arise from attempting to make that evidence available in a United States
court.
We affirm on substantially the same grounds provided
in the district court’s well-reasoned opinion, but pause
here to address two points raised by appellants. The first
relates to the degree of deference the district court applied
to the various appellants. As the court recognized, the
starting point for the forum non conveniens analysis is “a
strong presumption in favor” of a plaintiff’s chosen forum.
Simon v. Republic of Hungary, 911 F.3d 1172, 1182 (D.C.
Cir. 2018) (quoting Piper Aircraft, 454 U.S. at 255–56).
But the precise degree of deference afforded a plaintiff’s
forum choice varies depending on the plaintiff’s connection
to the forum. A plaintiff who chooses to sue in his home
forum receives the strongest presumption, whereas a foreign plaintiff with minimal or no connections to the United

9a
States is entitled to less deference. Piper Aircraft, 454
U.S. at 256. Accordingly, the district court afforded Appellant Wood, as a U.S. citizen and resident representing
a U.S. citizen decedent, “the highest degree of deference”
and tailored its analysis of the remaining appellants’ interests in having their claims heard in the United States to
their particular circumstances. In re Air Crash Over S.
Indian Ocean, 352 F. Supp. 3d at 45.
On appeal, the foreign appellants contend that the district court erroneously refused to afford any deference at
all to their decision to sue in the United States. They also
criticize the district court for failing to specify the precise
degree of deference it applied to them, claiming that
“[t]his omission, in and of itself, was reversible error.”
These arguments rest on a fundamental misconception of
what the forum non conveniens analysis requires. Indeed, this Court has stressed that “applying the correct
burden of proof is not a box-checking exercise.” Simon,
911 F.3d at 1185. What matters is not the particular words
a district court uses but whether the court’s analysis fits
the proper standard.
Here, the district court’s analysis reflected a careful
consideration of the foreign appellants’ interests in trying
these cases in the United States and a thoughtful balancing of the public and private interest factors with respect
to those individuals specifically. Moreover, as already
noted, the district court correctly recognized that Appellant Wood was entitled to the greatest degree of deference. Because the court concluded that even Wood’s substantial interest in trying these claims in the United States
could not overcome the significant evidentiary problems
posed by proceeding in a U.S. court, it necessarily followed
that the foreign appellants—who were concededly entitled
to less deference than Wood—could not succeed in showing that the balance of interests weighed in favor of maintaining their claims here. We find no reversible error in

10a
the district court’s reasoning regarding the appropriate
levels of deference afforded to appellants’ claims.
Second, appellants argue that the district court erred
by first declining to reach the separate sovereign immunity challenges raised by MAS/MAB and then relying on
the existence of potentially “intractable immunity questions” as a justification for its forum non conveniens dismissal. According to appellants, this analysis was inconsistent with Sinochem, under which a court may elect to
grant a motion for forum non conveniens while “bypassing” threshold issues relating to the court’s subject matter
jurisdiction. See 549 U.S. at 432.
As an initial matter, appellants incorrectly suggest
that the district court treated MAS/MAB’s immunity challenges under the FSIA “as granted for purposes of its forum non conveniens analysis.” Nor did the court impermissibly “leapfrog” the immunity questions and then rely
on the same unresolved immunity issues to deny appellants their chosen forum. Instead, the district court
merely conducted a preliminary assessment of
MAS/MAB’s immunity claims and concluded that “[t]he
potential of intractable immunity questions that might
stymie Boeing’s ability to implead other defendants raises
the prospect of precisely the kind of oppressive and vexatious outcome that forum non conveniens dismissal is designed to avoid.” In re Air Crash Over S. Indian Ocean,
352 F. Supp. 3d at 53 (citation omitted). Nothing in Sinochem requires district courts to conclusively determine
whether a defendant enjoys sovereign immunity before
considering immunity as a relevant factor in its forum non
conveniens analysis. Here, Boeing and MAS/MAB raise
serious arguments regarding MAS/MAB’s likely immunity, and it was entirely proper for the district court to recognize that serious jurisdictional questions exist and
weigh that as a factor in favor of dismissal.

11a
In addition, appellants argue that the district court
placed undue weight on sovereign immunity concerns as a
private interest factor favoring dismissal. The district
court’s opinion, however, makes clear that it considered all
relevant circumstances, including the potential immunity
issues, and concluded that “taken as a whole, the private
interest factors favor dismissal of these claims.” In re Air
Crash Over S. Indian Ocean, 352 F. Supp. 3d at 53 (emphasis added). Sinochem imposes no bar on a district
court’s ability to acknowledge the existence of meaningful
jurisdictional questions in determining whether “a foreign
tribunal is plainly the more suitable arbiter of the merits
of the case.” See Sinochem, 549 U.S. at 425. Thus, appellants’ Sinochem-based challenges also fail.
***
In considering appellees’ motion to dismiss for forum
non conveniens, the district court carefully weighed the
relevant public and private interest factors and reasonably
concluded that Malaysia is a more convenient forum to try
appellants’ claims. Because we find no “clear abuse of discretion” in the district court’s reasoning, we affirm.
So ordered.

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[November 21, 2018]
IN RE: AIR CRASH OVER
THE SOUTHERN INDIAN
OCEAN, ON MARCH 8, 2014
This Document Relates To:

MDL Docket No. 2712
Misc. No. 16-1184 (KBJ)

ALL CASES
MEMORANDUM OPINION
The legal claims in this multi-district litigation
(“MDL”) arise from one of the greatest aviation mysteries
of modern times: the disappearance of Malaysia Airlines
Flight MH370 somewhere in the southern Indian Ocean in
the early morning hours of March 4, 2014. Flight MH370
took off from Kuala Lumpur International Airport in Malaysia at 12:42 AM that morning, en route to Beijing,
China, with 227 passengers and 12 crew members aboard
the plane. Thirty-nine minutes after takeoff, while the
Boeing 777 aircraft was flying over the South China Sea
and transitioning from Malaysian to Vietnamese airspace,
Malaysian air traffic controllers lost radar contact with the
aircraft. At Malaysia’s behest, a massive international
search and rescue effort ensued, but neither the plane nor
any wreckage was recovered, and on January 28, 2015, the
Malaysian Department of Civil Aviation (“MDCA”) announced that all aboard Flight MH370 were presumed deceased. Some pieces of wreckage have since washed
(12a)

13a
ashore on islands in the Indian Ocean and on the eastern
coast of Africa, but, to date, most of the plane remains unaccounted for, including the cockpit voice recorder and the
flight data recorder.
Following the disappearance of Flight MH370, litigation commenced in both Malaysia and in the United
States; many plaintiffs have filed suit in both jurisdictions.
In the United States, complaints were filed in California,
the District of Columbia, Illinois, New York, South Carolina, and Washington state, and the Judicial Panel on Multidistrict Litigation subsequently centralized the pretrial
proceedings with respect to all of these cases in this District. (See Transfer Order, ECF No. 1.) The complaints in
these matters can generally be grouped into two categories. First, there are cases that assert claims under the
Montreal Convention against the defendant airlines—Malaysia Airlines System Berhad (Administrator Appointed)
(“MAS”) and Malaysia Airlines Berhad (“MAB”)—and/or
their insurers, Allianz Global Corporate & Specialty SE
(“AGCS SE”), and Henning Haagen, an officer at AGCS
SE. Second, there are cases that assert common law
wrongful death and products liability claims against airplane manufacturer Boeing, including claims based on a
res ipsa loquitor tort theory. There is also a single complaint that resides in the overlap between these two
groups—it asserts Montreal Convention, wrongful death,
and personal injury claims, and names MAS, MAB, AGCS
SE, Haagen, and Boeing as defendants. All told, 40 complaints are currently pending in this MDL.
Before this Court at present are five ripe motions pertaining to particular threshold issues that various defendants have raised: (1) a joint motion seeking dismissal of all
pending cases based on the doctrine of forum non conveniens, in which Defendants argue that it would be more convenient to ligate these matters in Malaysia, as opposed to
the United States (see Joint Mem. in Supp. of Mot. to

14a
Dismiss on the Ground of Forum Non Conveniens (“FNC
Mem.”), ECF No. 37-1); (2) a motion by MAS and MAB
seeking dismissal of the claims against them on the
grounds that they are agencies of the Malaysian government and immune from suit in United States courts pursuant to the Foreign Sovereign Immunities Act, 28 U.S.C.
§§ 1330, 1602 (see Defs.’ MAS and MAB’s Mem. in Supp.
of Their Rule 12(b)(1) Mot. to Dismiss on the Ground of
Immunity Pursuant to the Foreign Sovereign Immunities
Act (“FSIA Mem.”), ECF No. 39-1) 1; (3) a motion by MAS
seeking dismissal of the Montreal Convention claims
against it on the grounds that no provision of the Convention provides a court in the United States with jurisdiction
over these claims (see Def. MAS’s Mem. in Supp. of Its
Rule 12(b)(1) Mot. to Dismiss on the Ground of Lack of
Subject Matter Juris. Pursuant to the Montreal Convention (“Montreal Convention Mem.”), ECF No. 38-1) 2; (4) a
motion by AGCS SE seeking dismissal of the claims
against it for lack of personal jurisdiction, because it is a
foreign company that did not engage in any conduct connected to the loss of Flight MH370 in any of the jurisdictions in which it has been sued (see Def. AGCS SE’s Rule
12(b)(2) Mot. to Dismiss for Lack of Personal Juris.
(“AGCS SE Pers. Juris. Mot.”), ECF No. 35-1); and (5) a
motion by AGCS SE and Haagen seeking dismissal for
failure to state a claim upon which relief can be granted, in
which they argue that Plaintiffs’ attempt to make them
representatives of MAS and MAB, based solely on their
status as alleged insurers of MAS, has no legal foundation
(see Defs. AGCS SE and Henning Haagen’s Mem. in Supp.

MAB and AGCS SE have moved to join this motion. (See Motion for
Joinder, ECF No. 41.)
2
MAB and AGCS SE have moved to join this motion. (See Motion for
Joinder, ECF No. 40.)
1

15a
of Their Rule 12(b)(6) Mot. to Dismiss for Failure to State
a Claim (“Reinsurer Rule 12(b)(6) Mem.”), ECF No. 36-1).
This Court has carefully parsed the myriad dismissal
arguments Defendants have presented, and as fully explained below, it has determined that, on balance, the
claims asserted in the consolidated complaints have a substantial and overriding nexus to Malaysia that outweighs
the less substantial connection to the United States. As
such, litigation of these claims in the United States is comparatively inconvenient, and Defendants’ joint motion for
dismissal based on forum non conveniens will be
GRANTED, and Plaintiffs’ cases will be DISMISSED
without prejudice. The remaining threshold motions will
be DENIED as moot. A separate Order consistent with
this Memorandum Opinion will follow.
I. FACTUAL BACKGROUND3
A. The Incident And Its Aftermath
1. Flight MH370’s Disappearance
At 12:42 AM on the morning of March 8, 2014, Flight
MH370 took off from Kuala Lumpur International Airport
in Malaysia, en route to Beijing, China. (See Malaysian
ICAO Annex 13 Safety Investigation Team for MH370,
Factual Information Safety Investigation For MH370
(March 8, 2015, updated on April 15, 2015) (“Factual Investigation Rpt.”), ECF No. 37-4, at 21; Malaysian
The facts contained within this section are derived from the complaints filed in the various underlying actions, as well as the exhibits
that the parties have attached to their various filings in this matter.
See Johnson v. PPI Tech. Servs., L.P., No. 11cv2773, 2012 WL
1865713, at *2 (E.D. La. May 22, 2012) (explaining that a court adjudicating a forum non conveniens motion “is not limited to the allegations in the complaint, but may consider all of the evidence before it”);
see also Goldberg v. UBS AG, 660 F. Supp. 2d 410, 419 (E.D.N.Y. 2009)
(relying on the complaint and materials that the parties had submitted
when ruling on a motion seeking dismissal based on forum non conveniens).
3

16a
Department of Civil Aviation Press Release (“MDCA
Press Release”), ECF No. 37-3, ¶ 3.) 4 MAS was the national airline of Malaysia at that time (see Decl. of Rizani
Bin Hassan, Ex. 2 to FISA Mem., ECF No. 39-3, ¶¶ 5, 8,
20–21), and 12 Malaysian citizens staffed Flight MH370—
a pilot, a first officer, and 10 cabin crew (see MDCA Press
Release ¶ 4; Decl. of Mohd Fuad Bin Mohd Sharuji, Ex. 3
to FNC Mem., ECF No. 37-5, at ¶ 15). Also on board were
227 passengers of 14 nationalities, including 152 Chinese
citizens, 38 Malaysian citizens, and three United States
citizens. (See Decl. of Tan Sri Dato Seri Adbull Hamid
Embong, Ex. 10 to FNC Mem., ECF No. 37-12, ¶ 13). 5
At 1:19 AM, while the aircraft was over the South
China Sea and transitioning from Malaysian airspace to
Vietnamese airspace, Malaysian air traffic controllers instructed Flight MH370 to contact Vietnamese air traffic
controllers on a specific radio frequency, a request that the
pilot in charge acknowledged with, “Good night Malaysian
Three Seven Zero.” (Malaysian ICAO Annex 13 Safety Investigation Team for MH370, Safety Investigation Report
(July 2, 2018) (“Safety Investigation Rpt.”), ECF No. 1021, at 48, 477.) The pilot “did not read back the assigned
frequency, which was inconsistent with radio-telephony
procedures.” (Id. at 477.) This was the last recorded radio
transmission that the pilots of Flight MH370 sent, and two

Page numbers cited herein refer to those that Court’s electronic case
filing system automatically assigns.
5
The U.S. citizens were Philip Wood, Leo Meng, and Nicole Meng.
(See No. 1:16cv01063, Huang First Am. Compl. ECF No. 9, at ¶ 8; No.
1:16cv01048, Zhang 2d Am. Compl., ECF No. 7, ¶ 10; No. 1:16cv00439,
Smith Compl., ECF No. 1, at ¶ 8; and 1:16cv00053, Wood Compl., ECF
No. 1, at ¶ 23.) All three were living overseas at the time of the incident.
4

17a
minutes later, at 1:21 AM, Malaysian air traffic controllers
lost radar contact with the aircraft. (Id. at 48– 49.)6
“The Malaysian military radar and radar sources from
two other countries, namely Vietnam and Thailand, also
captured the disappearance of the radar position symbol
of MH370” in this same timeframe. (Id. at 49.) Once Malaysian air traffic controllers lost sight of Flight MH370 on
their radar, Malaysian military radar showed a “blip” that
appeared to be the plane. However, this “blip” appeared
to be diverting from Flight MH370’s northerly flight plan;
it briefly veered to the right, and then turned left dramatically, flying west-southwest across Malaysia, at variable
altitudes and speeds, before turning right when the plane
was south of Penang Island, off of the western coast of Malaysia. (See id. at 50, 55.) The “blip” indicated that the
plane was flying in a west-northwest direction, and it disappeared from the military radar entirely at 2:22 AM, 10
nautical miles north of a flight navigation waypoint known
as MEKAR. (See id. at 52, 55.)
The Boeing 777 the Malaysia Airlines used as equipment for Flight MH370 was equipped with a satellite communications system, and except for two brief periods, “the
aircraft [itself] communicated through the Inmarsat Indian Ocean Region . . . I-3 Satellite and the [Ground Earth
Station] in Perth, Australia.” (See id. at 165.)7 The satellite
connections were briefly lost sometime between 1:07 AM
and 2:03 AM, presumably as the result of equipment failing or being powered down, but Flight MH370’s satellite
Thirty minutes later, at 1:52 AM, a mobile phone tower at Bandar
Baru Farlim Penanang recorded a signal “hit” from the First Officer’s
mobile telephone, but no actual call took place. (See Safety Investigation Rpt. at 66.)
7
Plaintiffs represent that Inmarasat is located in the United Kingdom. (See Pls.’ Resp. to the Defs.’ Mot. to Dismiss Under the Doctrine
of Forum Non Conveniens, (“Podhurst FNC Opp’n’), ECF No. 68, at
13 n.4.)
6

18a
data unit logged back onto the system and sent a “handshake” at 2:25 AM. (See id. at 171.) The aircraft then initiated five additional “handshakes” before the satellite
communications system again briefly lost power, likely as
a result of fuel running low and engines losing power, but
then logged back on. (See id. at 171–175; 480.) The system
initiated a seventh and final “handshake” at 6:19 AM, but
when the Perth ground station attempted to contact the
plane again at 7:15 AM, it did not receive any response.
(See id. at 175–76.)
2. Search Efforts And Subsequent Investigations
Malaysia’s Minister of Transport authorized a team of
officials—known as the Malaysian ICAO Annex 13 Safety
Investigation Team for MH370 (hereinafter referred to as
the “Malaysian MH370 Investigation Team”)—to coordinate the initial search and rescue efforts, and also to investigate the cause of Flight MH370’s disappearance.
(MDCA Press Release ¶ 28.)8 On March 17, 2014, at Malaysia’s request, the Australian Transportation Safety
Board (“ATSB”) “took charge of the coordination of the
search and rescue operation[, and o]ver the next 6 weeks
The Convention on International Civil Aviation, also known as the
Chicago Convention, established the International Civil Aviation Organization (“ICAO”), a specialized agency of the United Nations that
works with the Convention’s 192 Member States (including the United
States and Malaysia) to establish standards for regulating international civil aviation. See About ICAO, available at https://www.
icao.int/about-icao/Pages/default.aspx; see also Convention on Int’l
Aviation, opened for signature Dec. 7, 1944, 61 Stat. 1180. Annex 13 to
the Chicago Convention, which adopts procedures for aircraft accident and incident investigation, requires a member state to investigate both incidents that take place inside its territory and also accidents involving aircraft registered in the member state in circumstances where the location of the incident cannot be determined to be
in any particular state. See Sections 5.1, 5.3 of Annex 13 to Convention
on
Int’l
Aviation
(available
at
https://www.emsa.europa.eu/retro/Docs/marine_casualties/annex_13.pdf).
8

19a
from 18 March, an intensive aerial and surface search was
conducted by assets from Australia, Malaysia, China, Japan, Korea, UK and the USA.” (ATSB, MH370—Definition of Underwater Search Areas (updated Aug. 18, 2014)
(“ATSB June 2014 Rpt.”), Ex. E to Pls.’ Resp. in Opp’n to
Defs.’ Mot. to Dismiss on the Ground of Forum Non Conveniens (“Motley Rice FNC Opp’n”), ECF No. 67-6, at 7.)
ATSB’s initial search for Flight MH370 was focused on
the South China Sea, which was the flight’s last known location as detected by air traffic control. “The search area
was later extended to the Straits of Malacca, to the west of
Malaysia, based on military radar showing that an aircraft
like Flight MH370 had made an air turn back from the
South China Sea and headed west back across the Malaysian Peninsula.” (Decl. of Hillary Barr (“Barr Decl.”), Ex.
5 to FNC Mem., ECF No. 37-7, ¶ 4.) Using the satellite
data “handshakes,” investigators plotted the plane’s likely
course, which included making a southern turn shortly after passing the northern tip of Sumatra, after the plane
had disappeared from military radar. (See Safety Investigation Rpt. at 184.) “The 52 days of the surface search involving aircraft and surface vessels covered an area of several million square kilometres[,]” and an extensive “sub
surface search for the aircraft’s underwater locator beacons was also conducted[.]” (Id. at 67.)9
Ultimately, the search team concluded that Flight
MH370 likely crashed in the Southern Indian Ocean after
running out of fuel. (See id.) “[T]he search and rescue
phase transitioned to a search and recovery phase” on
The subsurface search was massive in both scope and scale: “[t]he
underwater search started with a bathymetry survey which mapped a
total of 710,000 square kilometres of Indian Ocean seafloor and continued with a high-resolution sonar search which covered an area in
excess of 120,000 square kilometres.” (Safety Investigation Report at
67.)
9

20a
April 28, 2014 (MDCA Press Release ¶ 9), and on January
28, 2015, having not located the plane or any wreckage, the
MDCA announced that the “data supports the conclusion
that MH370 ended its flight in the southern Indian
Ocean[,]” away from any possible landing site. (Id. ¶ 20.)
Accordingly, the MDCA presumed that all passengers and
crew had perished. (Id. ¶ 23.)
Three pieces of confirmed wreckage and more than 20
pieces of likely wreckage have since washed ashore on islands in the Indian Ocean and on the eastern coast of Africa, but most of the plane remains unaccounted for, including the cockpit voice recorder and the flight data recorder. (See id. at 185–99.)10 In January of 2017, the governments of Malaysia, Australia, and China officially suspended the underwater search for Flight MH370. (See id.
at 67.) Thereafter, in January of 2018, a private company,
Ocean Infinity, entered into a contract with the Malaysian
government to conduct an additional underwater search
for wreckage, centered on an area that it believed was
most likely to contain wreckage from the aircraft. (See id.
at 67, 184.) Over a period of 90 days, Ocean Infinity
searched an additional 112,000 square kilometers north of
this initial search area, also to no avail. (See id.)
3. The Annex 13 Report And Criminal Investigation
With Australia taking the lead on locating the physical
remains of Flight MH370, the Malaysian MH370 Investigation Team—consisting of an Investigator in Charge and
18 additional subordinates—worked with representatives
from seven countries to determine why Flight MH370 had
disappeared; this investigation is known as “the Annex 13
Safety Investigation[.]” (See Safety Investigation Rpt. at
The various pieces of debris have been taken to different locations
for analysis, including France, Australia, and Malaysia. (See Barr
Decl. ¶ 13.)
10

21a
15, 443.) The United States participated in the Annex 13
Safety Investigation through the National Transportation
Safety Board (“NTSB”), because the United States is the
county of manufacture and design of the aircraft, and in
this regard, Boeing—which designed and manufactured
the aircraft at issue (see infra Part I.B)—served as a technical adviser to the NTSB. (Barr Decl. ¶ 9.)
Australia, the United Kingdom, Singapore, France,
China, and Indonesia also participated in the Annex 13
Safety Investigation. (See Safety Investigation Rpt. at
15.) The collective investigative effort involved interviewing more than 120 people, including MAS employees, crew
member relatives, Malaysia aviation officials, and representatives of companies that were shipping cargo on
Flight MH370. (See Malaysian ICAO Annex 13 Safety Investigation Team for MH370, Interim Stmt., Safety Investigation for MH370 (9M-MRO) (Mar. 8, 2015) (“Safety Investigation Interim Stmt.”), Ex. 6 to FNC Mem., ECF No.
37-8, at 3.) The team also reviewed airline-maintenance
records, as well as Boeing’s records, air traffic control records and recordings, closed-circuit footage of the crew,
bank records, and statements from friends, relatives, coworkers, and medical providers of the crew members.
(See id.; Safety Investigation Rpt. at 71, 82.) Annex 13 investigators thoroughly researched the pilots and the crew
members, and even analyzed the voices on the flight’s radio transmissions to detect signs of stress. (See Safety Investigation Rpt. at 71–84.)
On July 2, 2018, the Malaysian MH370 Investigation
Team issued a 449-page report, which was the culmination
of the years-long Annex 13 Safety Investigation’s inquiry
into the causes of the flight’s disappearance. (See generally Safety Investigation Rpt.; see also id. at 21 (noting
that the “sole objective of the investigation [was] prevention of accidents and incidents [and not] to apportion
blame or liability”).)

22a
In that report, the team noted that it “was likely” that
the left turn that took the aircraft back over Malaysia “was
under manual control and not the autopilot.” (Id. at 475.)
However, the investigators could not determine whether
or not “the other two turns over the south of Penang and
the north of MEKAR were made under manual control or
autopilot.” (Id.) The report also found that Malaysian air
traffic controllers “did not comply fully with established
[air traffic control] procedures” and did not initiate emergency procedures “in a timely manner[,]” and that Vietnamese air traffic controllers had also failed to communicate timely with Malaysian controllers about the disappearance of the plane. (Id. at 476.)
With respect to the initial loss of communication, investigators reported that
[a]lthough it cannot be conclusively ruled
out that an aircraft or system malfunction
was a cause, based on the limited evidence
available, it is more likely that the loss of
communication (VHF and HF communications, ACARS, SATCOM and Transponder) prior to the diversion is due to
the systems being manually turned off or
power interrupted to them or additionally
in the case of VHF and HF, not used,
whether with intent or otherwise.
(Id. at 478.) However, the investigation did not otherwise
reveal any apparent issues with the crew, nor did it indicate any problems with the plane’s systems, maintenance,
or cargo. (See id. at 486–89.)
Ultimately, the Annex 13 Investigation Team reported
that it was simply “unable to determine the real cause for
the disappearance of MH370.” (Id. at 489.) According to
the report, this inconclusive result was primarily due to
the lack of aircraft wreckage or data from any of the flight

23a
recorders—an acute absence of critical information that
prevented investigators from definitively ruling in or ruling out any specific causes. (See id. at 488–89 (“Without
the benefit of the examination of the aircraft wreckage and
recorded flight data information, the investigation was unable to identify any plausible aircraft or systems failure
mode that would lead to the observed systems deactivation, diversion from the filed flight plan route and the subsequent flight path taken by the aircraft. However, the
same lack of evidence precluded the investigation from
definitely eliminating that possibility. The possibility of
intervention by a third party cannot be excluded either.”).)
The Annex 13 Safety Investigation was not the only review of the potential causes of the Flight MH370 disaster;
Malaysian authorities also launched a criminal investigation into Flight MH370’s disappearance. As part of the
criminal investigation, the Royal Malaysian Police seized
a flight simulator from the home of the pilot in charge (see
Safety Investigation Rpt. at 73), and analysis of this simulator revealed “that there were seven ‘manually programmed’ waypoint coordinates . . . that when connected
together, will create a flight path from [Kuala Lumpur International Airport] to an area south of the Indian Ocean
through the Andaman Sea” (id. (footnote omitted)). However, the analysis “did not find any data that showed the
aircraft was performing climb, attitude or heading
manouevres, nor did [it] find any data that showed a similar route flown by MH370.” (Id.) In connection with its investigation, the Royal Malaysian Police also obtained
statements “from the next of kin and relatives, doctors/care givers, co-workers, friends and acquaintances”
of the crew members, and reviewed “financial records of
the flight crew [and] CCTV recordings at [the airport in
Kuala Lumpur,]” along with “analy[zing] the radio

24a
transmission made between MH370 and ground Air Traffic Control.” (See id. at 404.)11
4. The Reorganization Of MAS And The Passage
Of Act 765
Malaysia Airlines System Berhad (referred to herein
as “MAS”) is a “Government Linked Company” under Malaysian law, meaning that “it is a company in which the
Government of Malaysia has a direct controlling stake.”
(FSIA Mem. at 16.) Following the disappearance of Flight
MH370, Khazanah Nasional Berhad—a political subdivision of the Government of Malaysia and its sovereign
wealth fund—purchased the remaining ownership shares
of MAS from minority shareholders, and MAS was delisted from the Malaysian stock exchange. (See id. at 17.)
The Malaysian government then enacted a law entitled the
Malaysian Airline System Berhad (Administration) Act
2015 (“Act 765”), pursuant to which MAS was placed under administration and a new, separate entity—Malaysia
Airlines Berhad (“MAB”)—was incorporated to operate
as the national airline. (See id.) Among other things, Act
765 empowers MAS’s Administrator to manage and compromise liabilities for the company (Act 765 §§ 9(1)(b–e));
defend MAS in litigation (id. §§ 10(g–h)); transfer assets
from MAS to MAB (id. § 10(o)); and liquidate the assets of
MAS (id. § 10(e)). (See id. at 32– 33.) MAB assumed certain rights and liabilities from MAS, but under the terms
of Act 765, MAB is not a successor corporation of MAS,
see id. § 25(1)(a), and has not assumed any liabilities in connection with Flight MH370, (see Ex. 5 to FNC Reply).

Citing to news reports, Plaintiffs contend that the United States’
Federal Bureau of Investigation also participated in the Royal Malaysian Police’s criminal investigation, including analyzing data from the
flight simulator. (See Podhurst FNC Opp’n at 16 n.20.)
11

25a
5. Litigation In Malaysia
As of the briefing of the threshold issues that are now
before this Court, there are 27 civil cases pending in the
High Court of Malaya at Kuala Lumpur (Civil Division)
relating to the loss of Flight MH370, and these cases have
been transferred to a single judge for coordinated proceedings. (Decl. of Saranjit Singh (“Singh Decl.”), Ex. 13
to FNC Mem, ECF No. 37-13, ¶ 7.) Of the 88 decedents
represented in legal actions that are part of the instant
MDL, 77 are also represented in the cases pending in Malaysia, and the defendants in the Malaysian cases include
MAS, MAB, AGCS SE, and a number of Malaysian governmental entities. (See id. ¶ 9.) Boeing has not been
named as a defendant in any of the Malaysian cases.
The Malaysian High Court has declined the plaintiffs’
request to stay the Malaysian proceedings pending resolution of the instant forum non conveniens motion. (See
id. ¶¶ 10–13.) In addition, the Malaysian High Court also
denied the request of some of the attorneys who have filed
MDL cases to be admitted to represent their clients in the
Malaysian matters. (See Decl. of Tommy Thomas, Ex. 1
to Podhurst FNC Opp’n, ECF No. 68-1, ¶ 11.)
B. The Design, Manufacture, And Maintenance Of
The Aircraft
The equipment for Flight MH370 was a Boeing 7772H6ER (Serial Number 28420) that was designed and
manufactured at Boeing’s facility in Washington state in
May of 2002, and was delivered to MAS in new condition
on May 31, 2002. (See Barr Decl. ¶ 17; Fact Investigation
Rpt. at 42.) It is undisputed that all of the records related
“to the design, manufacture, assembly, testing, and certification of the 777 model aircraft” are located in Boeing’s
facilities in Washington, as are the Boeing employees who
have knowledge of these matters. (See Barr Decl. ¶ 17.) In
addition, records related to any customer support that

26a
Boeing may have provided to MAS regarding the plane
are also located in the United States, possibly in California. (See id.)
After delivery of the aircraft, the MDCA certified the
plane as airworthy, and that certification was current at
the time of Flight MH370’s disappearance. (See Safety Investigation Rpt. at 409.) MAS was responsible for maintenance of the aircraft, and original records related to such
work are located in Malaysia, as are the MAS employees
who completed the work. (See Barr Decl. ¶¶ 12–13.) Review of MAS’s maintenance files during the Annex 13 investigation indicated that MAS conducted regular maintenance on the aircraft, and that “all applicable Airworthiness Directives for mandatory compliance were complied
with.” (See Fact Investigation Rpt. at 44; Safety Investigation Rpt. at 409–411.)12 The only maintenance issue that
the Annex 13 Investigation revealed was that the battery
on the plane’s solid state flight data recorder underwater
locator beacon was overdue for replacement. (See Safety
Investigation Rpt. at 183.)
II. PROCEDURAL HISTORY
A. The Commencement Of Litigation In The
United States
In early 2016, many of the legal representatives or beneficiaries of passengers who had perished on Flight
MH370 initiated litigation in the United States related to
the disappearance of the flight—a total of 40 cases were
initially filed in four different locations (the District of Columbia, California, New York, and Illinois). (See Sch. A to
Plaintiffs assert that there are “364 Airworthiness Directives currently posed on the FAA website” related to the Boeing 777-200 aircraft, many of which “concern potential electrical and structure failure[s] of the 777-200[.]” (Motley Rice FNC Opp’n at 7–8.) Plaintiffs
further contend that records pertaining to these directives are located
in the United States. (Id.)
12

27a
Transfer Order, ECF No. 1; Sch. CTO-1 to Conditional
Transfer Order (“CTO-1”), ECF No. 2.) On June 6, 2016,
the JPML centralized all proceedings regarding the disappearance of Flight MH370 in this Court (see Transfer
Order), and issued orders transferring the pending cases
to this Court for coordinated pretrial proceedings (see id.
at 3; CTO-1 at 1). After the MDL was created and the initial transfers took place, two additional cases were filed—
one in the District of South Carolina, and another in the
Western District of Washington—and those two cases
were also transferred to this Court. (See Conditional
Transfer Order, ECF No. 57, at 3.)
1. The Plaintiffs
For the purpose of the instant threshold motions,
Plaintiffs have self-divided into two groups, with one
group consisting of legal representatives/beneficiaries
who are represented by the law firms of Podhurst Orseck,
P.A., and Wisner Law Firm P.C. (collectively, the
“Podhurst Plaintiffs”), and the second group consisting of
similar individuals represented by Motley Rice LLC, and
Spagnoletti & Co. (collectively, the “Motley Rice Plaintiffs”). The Podhurst Plaintiffs can be further subdivided
into two groups, with the first consisting of the plaintiffs
in two cases brought against MAS and MAB under the
Montreal Convention,13 and the second consisting of the
plaintiffs in 32 cases that assert state law wrongful death
and products liability claims against Boeing.14 (See infra
See Wood v. Malaysia Airlines Berhad, 16cv0053; Gaspard v. Malaysia Airlines Berhad, 16cv0419.
14
Li v. The Boeing Co., 16cv1128; Xiao v. The Boeing Co., 16cv1129;
Gao v. The Boeing Co., 16cv1130; Feng v. The Boeing Co., 16cv1131;
Wang v. The Boeing Co., 16cv1132; Wang v. The Boeing Co., 16cv1134;
Pang v. The Boeing Co., 16cv1135; Liang v. The Boeing Co., 16cv1136;
Hu v. The Boeing Co., 16cv1137; Zhou v. The Boeing Co., 16cv1138;
Hu v. The Boeing Co., 16cv1139; Wang v. The Boeing Co., 16cv1140;
Zhang v. The Boeing Co., 16cv1143; Tian v. The Boeing Co., 16cv1144;
13

28a
Part II.A.3.) The Motley Rice Plaintiffs can similarly be
subdivided into groups on the basis of the claims they are
asserting. (See infra, Part II.A.3.) One group of Motley
Rice Plaintiffs has brought claims under the Montreal
Convention against MAS and MAB, and their complaints
additionally name reinsurers AGCS SE and Haagen as defendants15 A second group of Motley Rice Plaintiffs have
filed suits that assert state law wrongful death and products liability claims against Boeing.16 The final Motley Rice
Plaintiffs group consists of a single case that has scores of
named plaintiffs and asserts claims related to 44 of the
Flight MH370 decedents.17 This group asserts both Montreal Convention claims and wrongful death/products liability claims against all of the defendants.
The Podhurst Plaintiffs are citizens and residents of a
variety of countries—four are citizens of the United
States; one is a resident of the United States; and 24 are
citizens and residents of India, Australia, or China. (See
Podhurst FNC Opp’n. at 21–22; see also infra, Part
IV.A.2; IV.B.2.) The Podhurst Plaintiffs represent, or are
otherwise related to, 62 of the passengers of the fateful
Li v. The Boeing Co., 16cv1145; Shirath v. The Boeing Co., 16cv1146;
Jia v. The Boeing Co., 16cv1147; Gaspard v. The Boeing Co., 16cv1148;
Wood v. The Boeing Co., 16cv1149; Santhanam v. The Boeing Co.,
16cv1151; Huang v. The Boeing Co., 16cv1152; Kolekar v. The Boeing
Co., 16cv1153; Han v. The Boeing Co., 16cv1161; Zhang v. The Boeing
Co., 16cv1164; Chen v. The Boeing Co., 16cv1165; Kolekar v. The Boeing Co., 16cv1166; Gaspard v. The Boeing Co., 16cv1296; Gaspard v.
The Boeing Co., 16cv1299; Zhang v. The Boeing Co., 16cv1306; Yuan
v. The Boeing Co., 16cv1307; Weeks v. The Boeing Co., 16cv1167; Richards v. The Boeing Co., 17cv0503.
15
See Smith v. Malaysia Airlines Berhad, 16cv0429; Kanan v. Malaysia Airlines Sys. Berhad, 16cv1062; Huang v. Malaysia Airlines
Berhad. 16cv1063.
16
Kanan v. The Boeing Co., 16cv1159, Keith v. The Boeing Company,
17cv0518.
17
Zhang v. Malaysia Airlines Berhad, 16cv1048.

29a
Flight MH370, only one of whom was a citizen of the
United States. The rest of the decedents who are referenced in the Podhurst Plaintiffs’ complaints are citizens
and/or residents of India, Australia, Indonesia, Japan, and
China. (See Podhurst FNC Opp’n at 21-22.)
Two of the Motley Rice Plaintiffs are citizens of the
United States (see Compl., Keith v. The Boeing Co.,
17cv0518, ECF No. 1, ¶ 1; Compl., Smith v. Malaysia Airlines Berhad, 16cv0439, ECF No. 1, ¶ 39), and one appears
to be a citizen of Malaysia (see Notice of Removal, Kanan
v. The Boeing Co., 16cv1159, at 6), while the remainder appear to be citizens of China (see Compl., Zhang v. Malaysia Airlines Berhad, 16cv1048, ECF No. 1, ¶¶ 42, 44–84).
Of the decedents who are referenced in the Motley Rice
complaints, two are United States citizens who were residents of China, and one is a lawful permanent resident of
the United States who was living in China at the time of
Flight MH370’s disappearance. (See Pls.’ Resp. to Def.
MAS’s Montreal Conv. Mot. (“Motley Rice Montreal Convention Opp’n”), ECF No. 66, at 6.) One appears to be a
citizen of Malaysia, and the remainder appear to be citizens of China. (See Kanan Notice of Removal at 6; Zhang
Compl., ¶¶ 42, 44–84.)
2. The Defendants
The various complaints that comprise this MDL name
one or more of five defendants. Defendants MAS and
MAB are based in Malaysia, while Boeing’s commercial
aircraft operations are based on the west coast of the
United States, in Washington state. (See Part I.B., supra.)
Four of the pending complaints also name as a defendant
AGCS SE, alleging that it is an insurer of MAS; AGCS SE
contends that it is a “Societas Europaea”-organized corporation that exists under the laws of the European Union,
and that it maintains its principal place of business in

30a
Munich, Germany. (See AGCS SE Pers. Juris. Mot. at 9.)18
The final defendant—Haagen—is an executive of AGCS
SE; he is named as a defendant in two complaints. (Id.)
3. The Claims
As noted above, the complaints consolidated in this
MDL assert two different types of claims: Montreal Convention claims against MAS and MAB (and in some cases,
their insurers), and state law wrongful death and products
liability claims against Boeing.
a. The Montreal Convention
The Montreal Convention—formally titled the “Convention for the Unification of Certain Rules for International Carriage by Air” —is an international treaty to
which both the United States and Malaysia are parties.
See May 28, 1999, S. Treaty Doc. No. 10645, 1999 WL
33292734 (2000).19 The Montreal Convention “sets forth
uniform rules for claims that arise out of incidents that occur during international air transportation[,]” Marotte v.
Am. Airlines, Inc., 296 F.3d 1255, 1258–59 (11th Cir.
2002), and it “applies to all international carriage of persons, baggage or cargo performed by aircraft for reward[,]” Art. 1.1, Montreal Conv. There is no dispute that
the disappearance of Flight MH370 involved international
carriage within the meaning of the Montreal Convention.
Article 17 of the Montreal Convention provides that an
air “carrier is liable for damage sustained in case of death
or bodily injury of a passenger upon condition only that
the accident which caused the death or injury took place
AGCS SE describes its relationship with MAS as “the reinsurer of
a retrocession of reinsurance issued by a Malaysian company to the
actual direct insurer of MAS”—in other words, a reinsurer of a reinsurer. (Id.)
19
The Montreal Convention, which became effective on November 4,
2003, succeeded the Warsaw Convention. See Bassam v. Am. Airlines, 287 Fed. Appx. 309, 312 (5th Cir. 2008) (per curiam).
18

31a
on board the aircraft or in the course of any of the operations of embarking or disembarking.” Art. 17, Montreal
Conv. “According to Article 21, a carrier is strictly liable
up to [113,000] Special Drawing Rights (SDR) . . . for damages sustained in case of death or bodily injury to passengers[.]” Delgado v. Delta Air Lines, Inc., No. 12-23272,
2013 WL 9838339, at *4 (S.D. Fla. Oct. 31, 2013) (internal
quotation marks and citation omitted).20 In addition, an air
carrier is liable for damages in excess of the initial 113,000
SDR if the plaintiff claims and establishes such damages,
unless the carrier can establish that the “accident is entirely attributable to events wholly outside the carrier’s
control.” Id.
The Montreal Convention specifies that a plaintiff generally can file a lawsuit seeking damages under the treaty
for passenger death or personal injury, as well as damage
to property, “before the court of the [1] domicile of the carrier or [2] of its principal place of business, or [3] where it
has a place of business through which the contract has
been made or [4] before the court at the place of destination.” Montreal Conv., Art. 33. Moreover, where the claim
involves the death or injury of a passenger, a legal action
may also be filed in the country where “at the time of the
accident the passenger has his or her principal and permanent residence and to or from which the carrier operates
services for the carriage of passengers by air, . . . and in
which that carrier conducts its business of carriage of passengers by air from premises leased or owned by the carrier itself or by another carrier with which it has a commercial agreement.” Id.
“An SDR is a unit of artificial currency which fluctuates based on
the global currency market.” Lee v. Air Canada, 228 F. Supp. 3d 302,
306 n.5 (S.D.N.Y. 2017). The Montreal Convention strict liability cap,
which was originally set at 100,000, is adjusted periodically, and was
113,000 at the time of the incident.
20

32a
b. Wrongful Death And Products Liability
Tort Claims Pertaining To Aviation Disasters
Wrongful death claims are a creature of state law, and
in the United States typically exist to provide “just compensation” to the survivors of a person wrongfully killed.
See Reiser v. United States, 786 F. Supp. 1334, 1335 (N.D.
Ill. 1992) (citing Ill. Rev. Stats. Ch. 70 ¶ 2); see also Aspinall v. McDonnell Douglas Corp., 625 F.2d 325, 327 (9th
Cir. 1980) (noting that “[u]nder California law the right of
a survivor to recover under the wrongful death theory is
purely statutory”); Rentz v. Spokane Cty., 438 F. Supp. 2d
1252, 1257 (E.D. Wash. 2006) (explaining that Washington
law permits a personal representative of a deceased individual to maintain a wrongful death suit for the benefit of
the heirs). The evidence in a wrongful death case in the
context of an aviation disaster, as in other wrongful death
cases, typically involves proof of the traditional elements
of a negligence claim: duty, breach, causation, and damages, including proof that the injury was a death. See Kasongo v. United States, 523 F. Supp. 2d 759, 792 (N.D. Ill.
2007).
Products liability claims, which are generally brought
under state common law, can proceed under either a strict
liability or a negligence theory, and require proof of the
causal relationship between a manufacturer’s product and
the injury a plaintiff has suffered. Thornton v. M7 Aerospace LP, 796 F.3d 757, 770 (7th Cir. 2015); see also Joy v.
Bell Helicopter Textron, Inc., 999 F.2d 549, 554 (D.C. Cir.
1993) (explaining that “[i]n order to recover, an injured
plaintiff must demonstrate not only that the product is defective, but also that the defect proximately caused plaintiff’s injury in that but for the defect, the injury would not
have occurred” (internal quotation marks and citation
omitted)). Thus, such cases typically involve evidence regarding the nature of the defect (manufacturing, design,

33a
or otherwise); the incident itself; and the damages suffered. See id. Plaintiffs here intend to rely upon a res ipsa
loquitur theory of causation, pursuant to which a jury can
infer that a manufacturer’s negligence caused the plaintiff’s injury based on the circumstances of the case, rather
than direct proof of a product defect. (See Mot. Hr’g Tr.
at 38:4–8.) See also Restatement (Third) of Torts: Phy. &
Emot. Harm § 17 (2010). With respect to aviation disasters, which might involve negligence by someone other
than the plane manufacturer, “res ipsa loquitur can be
found applicable only if the plaintiff has offered evidence
tending to negate the presence of causes other than the
defendant’s negligence.” Restatement (Third) of Torts:
Phy. & Emot. Harm § 17.
B. Defendants’ Threshold Motions
At the parties’ request, this Court ordered initial discovery limited to six topics—forum non conveniens; jurisdiction under the Foreign Sovereign Immunities Act; jurisdiction under the Montreal Convention; personal jurisdiction; plaintiffs’ capacity to bring suit; and whether
plaintiffs have stated a plausible claim against AGCS SE
and Haagen—and set a schedule for the briefing and filing
of dispositive motions related solely to those topics. (See
Scheduling Order, ECF No. 14, at 1–2.) Following the discovery period, Defendants filed the joint motion seeking
dismissal under the doctrine of forum non conveniens that
is the subject of this opinion. (See Joint Mot. to Dismiss
on the Ground of Forum Non Conveniens (“FNC Mot.”),
ECF No. 37.) Various defendants filed four other motions
related to these threshold topics.21
These are: a motion by MAS and MAB seeking dismissal of the
claims against them based on sovereign immunity (see Defs.’ Rule
12(b)(1) Mot. to Dismiss on the Ground of Immunity Pursuant to the
Foreign Sovereign Immunities Act, ECF No. 39); a motion by MAS
seeking dismissal of the Montreal Convention for lack of jurisdiction
21

34a
In their joint forum non conveniens motion, Defendants argue that all of the pending complaints should be dismissed in favor of litigation in Malaysia, under the Supreme Court’s holding in Piper Aircraft Co. v. Reyno, 454
U.S. 235 (1981).22 Defendants maintain that Malaysia is an
adequate and available forum for litigation of all of Plaintiffs’ claims. (See FNC Opp’n at 21–23.) They also argue
that the balance of private and public factors weighs in favor of dismissal, because the vast majority of evidence regarding liability is in Malaysia, and that it would be difficult to obtain the testimony of unwilling Malaysian witnesses in the United States. (See id. at 24–32.) Defendants
further assert that not all potential defendants can be
joined as defendants in United States courts (see id. at 32–
33), and that this Court could be called upon in the context
of this litigation to determine the validity of Act 765 (see
id. at 39–40). Moreover, Defendants contend that Malaysia’s interest in resolving lawsuits arising from the disappearance of Flight MH370 far outweighs any interest the
United States has in this matter, even taking into account
Boeing’s status as an American company and the presence
of a few American plaintiffs and decedents. (See id. at 37–
41.)

(see Def. MAS’s Rule 12(b)(1) Mot. to Dismiss Pls.’ Compls. On the
Ground of Lack of Subject Matter Juris. Pursuant to the Montreal
Convention, ECF No. 38); a motion by AGCS SE seeking dismissal of
the claims against it for lack of personal jurisdiction (see Def. AGCS
SE’s Rule 12(b)(2) Mot. to Dismiss for Lack of Personal Juris., ECF
No. 35); and a motion by AGCS SE and Haagen seeking dismissal for
failure to state a claim (see Defs. AGCS SE and Henning Haagen’s
Rule 12(b)(6) Mot. to Dismiss for Failure to State a Claim, ECF No.
36).
22
After the two most recent cases were filed and transferred to this
Court, Boeing moved to dismiss these two cases on grounds of forum
non conveniens as well. (See Mot. to Dismiss Newly Transferred
Cases, ECF No. 58.)

35a
Plaintiffs oppose dismissal based on forum non conveniens, and the two plaintiffs groups have filed two separate oppositions.23 The Podhurst Plaintiffs concede that
Malaysia is an adequate and available alternative forum
(see Podhurst FNC Opp’n at 20 n.30), while the Motley
Rice Plaintiffs assert that, because Act 765 has insulated
MAB from liability and there is nothing left of MAS, Malaysia is not an adequate forum (see Motley Rice FNC
Opp’n at 11–17). Both sets of plaintiffs’ briefs also maintain that little, if any, relevant evidence is located in Malaysia because the plane was never found and the Malaysian investigators were unable to determine the cause of
the disappearance even after conducting an extensive investigation. (See Podhurst FNC Opp’n at 35–37; Motley
Rice FNC Opp’n at 10.) Plaintiffs further maintain that all
records related to Boeing are located in the United States,
and that other relevant evidence is located in other countries such as China (records related to Chinese decedents),
the United Kingdom (satellite data records), or Australia
(search records). (See Podhurst FNC Opp’n at 30–42;
Motley Rice FNC Opp’n at 8–11). In this regard, the
Podhurst Plaintiffs emphasize that none of the decedents
that Podhurst represents are from Malaysia, and that certain of the decedents and plaintiffs in cases they have filed
have connections to the United States. (See Podhurst
FNC Opp’n at 17–18.) Both plaintiff groups also insist that
the United States has a strong public interest in ensuring
that an American aircraft manufacturer produces safe airplanes. (See Podhurst FNC Opp’n at 48–49; Motley Rice
FNC Opp’n at 22.)

(Pls.’ Resp. in Opp’n to Defs.’ Joint Mot. to Dismiss on the Ground
of Forum Non Conveniens, ECF No. 67; Pls.’ Resp. to the Defs.’ Mot.
to Dismiss Under the Doctrine of Forum Non Conveniens, ECF No.
68.)
23

36a
Defendants’ joint forum non conveniens motion became ripe for this Court’s consideration on September 8,
2017 (see Joint Reply in Supp. of FNC Mot., ECF No. 72),
and the Court heard oral argument on all of the threshold
motions on December 19, 2017 (see Min. Entry Of Dec. 19,
2017).
III. MOTIONS TO DISMISS BASED ON FORUM NON
CONVENIENS
Although a court must ordinarily rule upon questions
concerning its own jurisdiction before assessing the merits
of any other motion, an exception exists when a forum non
conveniens motion is filed; it is well established that a
court may opt to decide a forum non conveniens motion
before considering any jurisdictional issues. See Sinochem Int’l Co. Ltd. v. Malaysia Int’l Shipping Corp., 549
U.S. 422, 425 (2007). The standard used to evaluate a motion seeking dismissal based on the doctrine of forum non
conveniens is clear beyond cavil. The movant bears the
burden of showing that (1) there is an available and adequate alternative forum, and (2) the balance of various
public and private interest factors indicates that maintaining the case in the current forum is comparatively inconvenient. See Piper Aircraft Co., 454 U.S. at 254 n.22; see
also Gulf Oil Corp. v. Gilbert, 330 U.S. 501, 508 (1947);
Agudas Chasidei Chabad of U.S. v. Russian Fed’n, 528
F.3d 934, 950 (D.C. Cir. 2008); Azima v. RAK Inv. Auth.,
305 F. Supp. 3d 149, 160 (D.D.C. 2018). “[T]he district
court is accorded substantial flexibility in evaluating a forum non conveniens motion, and each case turns on its
facts.” Van Cauwenberghe v. Biard, 486 U.S. 517, 529
(1988) (internal citations and quotation marks omitted).
Indeed, “[i]f central emphasis were placed on any one factor, the forum non conveniens doctrine would lose much
of the very flexibility that makes it so valuable.” Simon v.
Rep. of Hungary, 277 F. Supp. 3d 42, 62 (D.D.C. 2017) (internal quotation marks and citation omitted).

37a
A foreign forum is available and adequate when it “provide[s] the plaintiff with ‘some’ remedy[,]” Loya v. Starwood Hotels & Resorts Worldwide, Inc., 583 F.3d 656, 666
(9th Cir. 2009), even if the damages available to the plaintiff would be less than those available in the United States,
and even if certain theories of liability are not recognized,
see Piper Aircraft Co., 454 U.S. at 247, 255. On the other
hand, where the alternative forum could not award any relief to a plaintiff at all, courts will find that the forum is not
adequate. See Nemariam v. Fed. Democratic Republic of
Ethiopia, 315 F.3d 390, 394 (D.C. Cir. 2003) (finding alternative forum was inadequate because the governing law
barred plaintiff from directly filing her claim); Yueh-Lan
Wang by & through Winston Wen-Young Wong v. New
Mighty U.S. Tr., 322 F.R.D. 11, 26 (D.D.C. 2017) (holding
that alternative forum was inadequate where plaintiff’s
claim would be time-barred); see also In re Air Crash Disaster Near Bombay, India on Jan. 1, 1978, 531 F. Supp.
1175, 1191 (W.D. Wash. 1982) (finding that a case involving
India’s national air carrier should be litigated in India, but
denying forum non conveniens motion where Indian forum was unavailable to plaintiffs).
The public interest factors that a court must consider
when assessing a motion to dismiss for forum non conveniens include “having localized controversies decided at
home”; minimizing “administrative difficulties” such as
court congestion and imposing jury duty on citizens in a
“community which has no relation to the litigation”; and
unnecessarily burdening courts with “problems in choiceof-law and the application of foreign law.” D & S Consulting, Inc. v. Kingdom of Saudi Arabia, 322 F. Supp. 3d 45,
49–50 (D.D.C. 2018); see also Gulf Oil Corp., 330 U.S. at
508–09; Pain v. United Techs. Corp., 637 F.2d 775, 791–92
(D.C. Cir. 1980). And when balancing the private interests
in litigating the claims at issue in a particular forum, a
court considers a variety of factors, including “the relative

38a
ease of access to sources of proof”; the availability of compulsory process for the attendance of witnesses and the
cost of obtaining attendance; the enforceability of any
judgment; the “possibility of view of premises, if view
would be appropriate to the action; and all other practical
problems that make trial of a case easy, expeditious and
inexpensive.” Am. Dredging Co. v. Miller, 510 U.S. 443,
448 (1994) (internal quotation marks and citation omitted).
Because forum non conveniens is a procedural question, this Court applies D.C. Circuit law in deciding forum
non conveniens motions. See Am. Dredging Co., 510 U.S.
at 453; In re Korean Air Lines Disaster of Sept. 1, 1983,
829 F.2d 1171, 1178 (D.C. Cir. 1987). Moreover, and notably, in the context of aviation disasters, “[t]he plaintiff’s
choice of forum will not be disturbed unless the private
and public interest factors strongly favor trial in the foreign country.” In re Air Crash Over Mid-Atl. on June 1,
2009 (“Air France”), 760 F. Supp. 2d 832, 839 (N.D. Cal.
2010). Furthermore, the nationality of the plaintiff has
some relevance to a court’s consideration of the forum non
conveniens question, as the Supreme Court has explained:
[T]here is ordinarily a strong presumption
in favor of the plaintiff’s choice of forum,
which may be overcome only when the private and public interest factors clearly
point towards trial in the alternative forum. . . . [H]owever, . . . the presumption
applies with less force when the plaintiff
or real parties in interest are foreign.
Piper Aircraft Co., 454 U.S. at 255.
IV. ANALYSIS
Defendants’ joint motion for dismissal of the instant
MDL cases on forum non conveniens grounds requires
this Court to consider the adequacy of Malaysia as a forum
for litigating claims related to this incident, and, as

39a
reflected in the myriad applicable public and private interest factors, the Court must also balance the significant relationship between Malaysia and the claims brought in
these cases, on the one hand, against the manifestly lesssubstantial connection between the Flight MH370 disaster and the United States, on the other. The substantial
connections that exist between the country of Malaysia
and the tragic incident that precipitated the legal actions
that comprise the instant MDL are undeniable, as explained below. Boeing’s role as the missing plane’s manufacturer and the alleged U.S. citizenship or resident status
of a few of the named plaintiffs and decedents are significant considerations too, but this Court’s assessment of the
established forum non conveniens factors compels the
conclusion that neither the Montreal Convention claims
nor the wrongful death and products liability claims that
are at issue in these cases are ultimately more conveniently litigated in the United States than in Malaysia. As
a result, and for the reasons discussed below, the Court
concludes that Defendants’ motion for dismissal based on
forum non conveniens must be granted, and the 40 pending cases that compromise this MDL must be dismissed.
A. On Balance, And When Compared To Malaysia,
The United States Is An Inconvenient Forum
For The Litigation Of Plaintiffs’ Montreal Convention Claims Against MAS/MAB
Six cases currently pending in this MDL assert Montreal Convention claims against MAS and MAB (and, in
two instances, their affiliated insurers): two of the cases
that the Podhurst Plaintiffs have filed, and four of the
cases that the Motley Rice Plaintiffs have filed. See Wood
v. Malaysia Airlines Berhad, 16cv0053; Gaspard v. Malaysia Airlines Berhad, 16cv0419; Smith v. Malaysia Airlines Berhad, 16cv0439; Kanan v. Malaysia Airlines Sys.
Berhad, 16cv1062; Huang v. Malaysia Airlines Berhad.
16cv1063; Zhang v. Malaysia Airlines Berhad, 16cv1048.

40a
Careful consideration of the established forum non conveniens factors persuades this Court that, notwithstanding the fact that some of these cases involve U.S. plaintiffs
or decedents, the Montreal Convention claims that these
cases raise would be more conveniently litigated in Malaysia than the United States. See Piper Aircraft Co., 454
U.S. at 255–56.
1. Malaysia Is An Available And Adequate Forum For Litigation Of Plaintiffs’ Montreal
Convention Claims
With respect to the first factor in the forum non conveniens analysis, this Court readily finds that Malaysia is
an available and adequate alternative forum for litigation
of Plaintiffs’ Montreal Convention claims. See Giro, Inc.
v. Malaysian Airline Sys. Berhad, No. 10 CIV. 5550
(JGK), 2011 WL 2183171, at *7 (S.D.N.Y. June 3, 2011)
(holding that Malaysia is an adequate alternative forum
under the Piper standard); Simcox v. McDermott Intl.,
Inc., 152 F.R.D. 689, 700 (S.D. Tex. 1994) (same); Jayaraman v. Salomon, Inc., No. 87 Civ. 2781 (MJL), 1991 WL
61071, at *4 (S.D.N.Y. Apr. 5, 1991) (same). The Podhurst
Plaintiffs do not dispute that the Malaysian courts are
available and adequate with respect to litigating these
claims (see Podhurst FNC Opp’n at 20 n.30), and as noted,
cases brought against MAS and MAB relating to the
Flight MH370 disaster are currently pending in that country’s courts (see Singh Decl. ¶ 7). Malaysia is also a signatory to the Montreal Convention, and because Malaysia is
both the domicile and the principal place of business of the
airline that operated Flight MH370, Malaysian courts
have the power to hear Plaintiffs’ Montreal Convention
claims under the terms of the Montreal Convention itself.
See Montreal Conv., Art. 33.
The Motley Rice Plaintiffs contend nevertheless that
Malaysia is not an available and adequate forum for the

41a
purpose of the forum non conveniens analysis because,
due to the Malaysian legislature’s enactment of Act 765,
“there is nothing left of MAS except one ‘Administrator’
who has no MAS property, records or assets to administer.” (Motley Rice FNC Opp’n at 12.) In this Court’s view,
this assertion is an unpersuasive basis for continuing to litigate these matters in the United States for at least two
reasons. First of all, it appears that MAS’s status as a former commercial entity is immaterial to its ability to satisfy
any judgment against it under the Montreal Convention
or otherwise, because MAS holds an insurance policy from
which claims and judgments can be paid. (See Decl. of
Brendan Baxter, Ex. A to AGCS SE Pers. Juris. Mot.,
ECF No. 35-2, ¶¶ 20–23.) Moreover, even if MAS is judgment-proof, that status hardly compels the conclusion that
the United States is a more convenient forum, which is the
relevant issue with respect to the forum non conveniens
analysis. Indeed, if the Motley Rice Plaintiffs are correct
that MAS no longer has any assets as a result of the Malaysian legislature’s enactment of Act 765, it is debatable
whether they can obtain the relief they seek even if their
cases remain in the United States. Cf. Hourani v.
Mirtchev, 796 F.3d 1, 11–12 (D.C. Cir. 2015) (noting that
the act of state doctrine “prevents federal courts from declaring invalid the official act of a foreign sovereign involving activities undertaken within its own territory” (alterations, internal quotation marks, and citations omitted)).
In any event, it is well established that the availability
and the adequacy of a forum does not turn on whether exactly the same remedy that exists in the United States is
available in the foreign forum. See Piper Aircraft Co., 454
U.S. at 247, 255 (holding that a forum is adequate so long
as some remedy is available, even if the remedy is not as
fulsome as in the United States); see also Chin-Ten Hsu v.
New Mighty U.S. Tr., 308 F. Supp. 3d 178, 185 (D.D.C.
2018) (noting “[t]he inquiry under [forum non conveniens]

42a
is focused on the availability and adequacy of an alternate
forum, not the nuances of each party’s respective advantages or disadvantages if the suit is brought abroad”
(internal alterations omitted)). It is only in “rare circumstances where the remedy provided by the alternative forum is so clearly inadequate or unsatisfactory[] that it is
no remedy at all, that this requirement is not met.” Lueck
v. Sundstrand Corp., 236 F.3d 1137, 1143 (9th Cir. 2001)
(internal quotation marks, citation, and alterations omitted). And Motley Rice has not provided any reason to suggest that plaintiffs “will be deprived of all remedies or
treated unfairly” if these cases are litigated in the Malaysian legal system. Irwin v. World Wildlife Fund, Inc., 448
F. Supp. 2d 29, 33 (D.D.C. 2006). Compare id. at 34 (finding that Gabon was an adequate and available alternative
forum because “the Gabonese legal system would allow
plaintiffs to maintain an action against defendant to recover for injuries caused by defendant, Gabonese law recognizes claims that are similar or comparable to the claims
in the complaint, and these type of claims are routinely
heard in Gabon”) with Nemariam, 315 F.3d at 394 (holding that alternative forum was inadequate because the legal claim could not be brought under governing law);
Yueh-Lan Wang, 322 F.R.D. at 26 (same).
Accordingly, this Court finds that Defendants have
satisfied the first prong of the forum non conveniens test.
See Piper Aircraft Co., 454 U.S. at 255.

43a
2. The Balance Of The Public And Private Interests Weighs In Favor Of Litigation In Malaysia
a. Malaysia Has A Significant Public Interest
In Litigating The Montreal Convention
Claims That Arise From The Disappearance Of Flight MH370
As to the public interest in litigating the claims at issue,
this Court finds that Malaysia has an overwhelming interest in the resolution of any Montreal Convention claims
that have been asserted against its own national carrier
due to one of the largest aviation disasters in Malaysian
history. See, e.g., In re Air Crash Near Peixoto De
Azeveda, 574 F. Supp. 2d 272, 288 (E.D.N.Y. 2008) (noting
that Brazil’s interest in resolving litigation involving the
largest aviation accident in its history “is obvious”), aff’d
sub nom. Lleras v. Excelaire Servs. Inc., 354 F. App’x 585
(2d Cir. 2009); see also Torreblanca de Aguilar v. Boeing
Co., 806 F. Supp. 139, 144 (E.D. Tex. 1992) (finding that
Mexico had “the paramount interest in this lawsuit” because, among other things, the airline at issue was “owned
and regulated by the Mexican government”).
To be sure, Flight MH370 disappeared when it was flying over international waters rather than over Malaysian
territory (see Podhurst FNC Opp’n at 12–13 (arguing that
“Flight MH370 crashed . . . not in Malaysia, nor anywhere
near Malaysia, but [in the ocean] thousands of miles
away”)), but Malaysia’s myriad connections to that flight
are undeniably substantial. It was Malaysia’s national air
carrier—MAS—that operated Flight MH370, and the illfated aircraft departed from an airport in Kuala Lumpur
shortly before its disappearance, as detailed and documented in Part I.A.1 above. Malaysian air traffic controllers were the last persons to have direct contact with the
pilot and crew, who were themselves Malaysian citizens.

44a
And after the aircraft vanished, Malaysian officials were
responsible for leading the civil safety investigation pursuant to an international treaty. Malaysian authorities
further conducted a separate criminal investigation concerning individuals who were known to have contact with
the flight and/or aircraft, and the Malaysian court system
has now undertaken to entertain a host of lawsuits that
were filed in that jurisdiction by representatives and heirs
of the decedents—in fact, 77 of the 88 Flight MH370 passengers whose interests are represented in the cases that
are now before this Court are also the subject of pending
Malaysian lawsuits that arise out of these same unfortunate circumstances. What is more, the Flight MH370 disaster was of such significance to the government of Malaysia that it enacted legislation reorganizing MAS and creating MAB in the wake of these events.
All of these facts underscore the very strong Malaysian interest in the Montreal Convention claims arising
from this tragedy. See Air France, 760 F. Supp. 2d at 846
(explaining that “France’s interest is especially obvious
here because it is also conducting the official civil investigation and an official criminal investigation”); Torreblanca
de Aguilar, 806 F. Supp. at 144 (finding that public interest favored Mexico where, among other things, “[t]he accident investigation was conducted by the Mexican government at considerable expenditure of resources”); In re
Disaster at Riyadh Airport, Saudi Arabia, on Aug. 19,
1980, 540 F. Supp. 1141, 1152 (D.D.C. 1982) (dismissing
case based on forum non conveniens where airplane was
owned and operated by national corporation of proposed
alternative forum and maintained in that foreign country,
and where alternative forum conducted the official investigation of the accident); Lumenta v. Bell Helicopter Textron, Inc., No. 01-14-00207-CV, 2015 WL 5076299, at *6
(Tex. App. Aug. 27, 2015) (granting forum non conveniens
motion where crash occurred in Indonesia, and witnesses

45a
and relevant records related to maintenance of aircraft
and air traffic control communications with aircraft before
crash were located in Indonesia).
Setting aside the fact that three of the plaintiffs in the
MDL cases that assert Montreal Convention claims have
connections to the United States, and four of the related
decedents were either citizens or legal residents of the
United States—factors that are discussed separately in
Part IV.A.2.c below—the United States’s interest in Plaintiffs’ Montreal Convention claims against MAS and MAB
is relatively minor. Indeed, the best that the Motley Rice
Plaintiffs can muster on this front is the argument that
“the President of the United States promised these plaintiffs, families of the relatives of MH370, in English and
Chinese, that the United States of America would do ‘all
we can to help in the search efforts to find the plane that
carried your family members[.]’” (Motley Rice FNC Opp’n
at 4 (alterations omitted)). Of course, this is far from a
commitment to make the U.S. court system available as a
forum for the litigation of these family members’ legal
claims against Malaysia’s national air carrier. And “given
the comparatively limited interest that the United States
has in resolving litigation stemming from the crash,” it is
relatively easy to find “that the burden on the judiciary
and potential jurors if these matters were kept here is another public interest factor favoring dismissal.” Air
France, 760 F. Supp. 2d at 84; see also Vivendi SA v. TMobile USA, Inc., 586 F.3d 689, 696 (9th Cir. 2009); see
also In re Disaster at Riyadh Airport, Saudi Arabia, on
Aug. 19, 1980, 540 F. Supp. at 1152 (finding that “jury duty
ought not to be imposed upon the people of the United
States nor should United States courts be clogged by processing these cases when the underlying accident has such
tenuous contacts to the United States”).
Finally, this Court notes that these cases will likely
present complex conflicts-of-law questions, which is

46a
another public interest factor that weighs in favor of dismissal on forum non conveniens grounds. See Piper Aircraft Co., 454 U.S. at 265 (noting that “the public interest
factors point towards dismissal where the court would be
required to untangle problems in conflict of laws, and in
law foreign to itself” (internal quotation marks and citation omitted)); see also Air France, 760 F. Supp. 2d at 847
(explaining that “the possibility that French law will apply
is an additional factor favoring dismissal”); Proyectos Orchimex de Costa Rica, S.A. v. E.I. du Pont de Nemours &
Co., 896 F. Supp. 1197, 1204 (M.D. Fla. 1995) (“Without
deciding the choice of law issue, the court finds that the
possibility that foreign law will apply weighs strongly in
favor of dismissal.”). Indeed, “[t]he selection of the applicable law in aircraft disaster litigation has been a vexing
issue for courts over time.” In re Air Crash at Belle Harbor, New York on Nov. 12, 2001, No. MDL 1448 (RWS),
2006 WL 1288298, at *4 (S.D.N.Y. May 9, 2006); see also
In re Air Crash Off Long Island, New York, on July 17,
1996, No. 96-cv-7986, 1998 WL 292333, at *11 (S.D.N.Y.
June 2, 1998) (noting that “[d]ifficult choice of law issues
arise when an aircraft transporting people from several
nations meets a tragic end in federal territory not belonging to any state”), aff’d and remanded, 209 F.3d 200 (2d
Cir. 2000). Courts presiding over cases involving airline
disasters have to decide whether to apply the law of the
primary place of business of the airline, the law of the decedent’s residence, or the law of the place where the accident took place, among other options. See In re Air Crash
Disaster Near Chicago, Ill. on May 25, 1979, 644 F.2d 594,
604 (7th Cir. 1981). The parties here have already pointed
to a variety of jurisdictions as possible sources of governing law in this case, including Malaysian law, Chinese law,
the U.S. Death on the High Seas Act, and the common law
of the various states where the plaintiffs initially filed their

47a
complaints. (See FNC Mem. at 42; Podhurst FNC Opp’n
at 53–55.)
“The doctrine of forum non conveniens . . . is designed
in part to help courts avoid conducting complex exercises
in comparative law.” Piper Aircraft Co., 454 U.S. at 251.
It is also potentially troubling that this Court might be
called upon to consider the validity of Act 765, which the
Motley Rice Plaintiffs have alleged is invalid and improper. (Motley Rice FNC Opp’n at 13–16.) Questions regarding the validity of foreign laws that are effective in
foreign countries are better left to courts in those countries, see Hourani, 796 F.3d at 11–12; thus, the possibility
that this Court might have to address such complex, novel
legal issues is another public interest factor that weighs
heavily in favor of dismissing the Montreal Convention
claim cases.
b. The Private Interests Also Generally Weigh
In Favor Of Litigating Plaintiffs’ Montreal
Convention Claims In Malaysia
As explained above, the relevant private interest factors in the forum non conveniens analysis include “the relative ease of access to sources of proof; [the] availability of
compulsory process for attendance of unwilling [witnesses] and the cost of obtaining attendance of willing[]
witnesses; [the] possibility of view of premises, if view
would be appropriate to the action; and all other practical
problems that make trial of a case easy, expeditious and
inexpensive.” Gulf Oil Corp., 330 U.S. at 508. This Court’s
evaluation of these and similar private interest factors begins with the recognition that standard Montreal Convention claims are strict liability claims that ordinarily raise
limited questions of fact—specifically, whether an accident occurred with respect to a carrier’s aircraft, and the
amount of damages suffered. See Art. 21, Montreal Conv.
(imposing strict liability on a carrier for damages up to a

48a
set amount of special drawing rights). Moreover, here, in
addition to the lack of any dispute regarding the existence
of the Flight MH370 disaster, Plaintiffs have agreed to
make all damages-related evidence available, at their own
expense, in the United States. (See Podhurst FNC Opp’n
at 33 n.59.) Thus, litigation of Plaintiff’s strict liability
Montreal Convention claims in the United States will not
necessarily inconvenience Defendants.
However, with respect to the Montreal Convention
claims at issue in this MDL, the private interest-balancing
inquiry does not stop there, because Plaintiffs have made
clear that they are seeking damages in excess of the first
113,000 special drawing rights. (See, e.g., Compl., Wood v.
Malaysia Airlines Berhad, 16cv0053, ECF No. 1, ¶ 59;
Compl., Smith v. Malaysia Airlines Berhad, 16cv0439,
ECF No. 1, ¶ 115.) The Montreal Convention permits
plaintiffs to recover such excess damages (assuming their
evidence establishes those loss values), but the carrier is
also authorized to defend against any such judgment by
demonstrating that the “accident is entirely attributable
to events wholly outside the carrier’s control.” Delgado,
2013 WL 9838339, at *4. And it is that inquiry that will
necessarily expand the scope of the litigation related to
Plaintiffs’ Montreal Convention claims such that litigating
these claims in the United States could become unduly
burdensome.
This is so because the logical alternative party to which
MAS/MAB could point as being responsible for the disappearance of Flight MH370 is aircraft manufacturer Boeing—Plaintiffs have acknowledged (and embraced) this
possibility, presumably because Boeing is a U.S. corporation. (See Podhurst FNC Opp’n at 31–35; see also id. at
35–36 (observing that the evidence pertaining to Boeing’s
role in manufacturing the aircraft at issue is located in the
United States).) And Boeing’s response to any such charge
might well be to contend that the design and manufacture

49a
of the aircraft was not responsible for Flight MH370’s disappearance; instead its loss was caused by some other factor—such as pilot suicide, cargo fire, or terrorism—and
such allegations plainly open the door to an assessment of
what, in fact, caused Flight MH370 to disappear. In other
words, because a carrier sued under the Montreal Convention can cast blame on other potentially responsible parties to defend against the plaintiffs’ recovery of amounts
in excess of the 113,000 drawing rights strict-liability cap,
and those other parties can point to other potential causes,
any claim for excess damages necessarily involves the possibility of full-blown litigation into the fault issue that the
strict-liability aspect of Montreal Convention claims seeks
to avoid.
And, of course, once liability is at issue, MAS/MAB and
any other implead defendants would be entitled to take
discovery on that topic. See Fed. R. Civ. P 26(b) (authorizing parties to take discovery “regarding any nonprivileged matter that is relevant to any party’s claim or defense”). Here, liability-related evidence might include satellite-communication evidence located in the United Kingdom, debris evidence in France and Australia, and search
records that are also located in Australia, and the discovery quest would also inevitably include seeking the potentially vast amounts of materials and information that are
located in Malaysia, including personnel files, airline
maintenance records, manuals, air traffic control recordings, video recordings, cargo records, and bank records.
See Pain, 637 F.2d at 786–87 (noting that maintenance
records and accident reports prepared by a foreign government were relevant to an aircraft manufacturer’s defense or tort claims arising from crash). Many relevant
witnesses are also located in Malaysia, including airline
employees, family members and acquaintances of the
crew, air traffic controllers, cargo shippers, and Malaysian
investigators, among others. And the fact that Malaysia is

50a
not a party to the Hague Convention means that the only
way to enforce any discovery requests on any unwilling
Malaysian parties would be through the “burdensome,
costly, and time-consuming” letters rogatory process.
Quaak v. KPMG Bedrijfsrevisoren, 361 F.3d 11, 21 & n.4
(1st Cir. 2004). (See also FNC Mem. at 31; Podhurst FNC
Opp’n at 42 (acknowledging that Malaysia is not subject to
the Hague Convention).)
Courts regularly find that the inability to compel witnesses and evidence except through letters rogatory is a
compelling factor that weighs in favor of dismissal based
on forum non conveniens. See, e.g., Tazoe v. Airbus
S.A.S., 631 F.3d 1321, 1331 (11th Cir. 2011) (affirming forum non conveniens dismissal where United States court
“lack[ed] the authority to compel certain witnesses to attend proceedings in that jurisdiction”); Clerides v. Boeing
Co., 534 F.3d 623, 630 (7th Cir. 2008) (affirming forum non
conveniens dismissal where “the court concluded reasonably that the superiority of live testimony and the inconvenience of taped depositions obtained by letters rogatory
favored dismissal”). This Court considers this potential
practical problem to be a compelling argument that supports dismissal of the instant cases.
Plaintiffs’ response is to insist that there is really no
need to look at Malaysian sources of evidence, nor should
the Court be concerned about the difficulty of enforcing
any discovery-related subpoenas, because the Annex 13
Safety Investigation did not unearth any issues with
maintenance of the plane, the pilots, the weather, cargo, or
anything else that pointed to the cause of the incident, so
it is safe to assume that no relevant evidence currently exists in Malaysia. (See Motley Rice FNC Opp’n at 4
(“[A]lmost no evidence is in Malaysia—a fact confirmed in
Malaysia’s Safety Investigation for MH370.”); Mot. Hr’g
Tr. (Dec. 19, 2017), ECF No. 90, at 39:25–40:1 (arguing
that “there is no evidence in Malaysia relevant to the

51a
question of what happened to this plane”).) Plaintiffs fail
to cite a single case that squarely supports the proposition
that a civil defendant is barred from revisiting issues and
evidence that were explored during an investigation conducted under Annex 13 of the Convention on International
Civil Aviation, much less that a court must grant preclusive effect to the conclusions of any such Annex 13 investigation in the context of related civil litigation. Rather, it
is axiomatic that civil defendants have the right to develop
and present their defense, and in this case, because Plaintiffs are seeking damages in excess of the strict-liability
drawing rights cap, the defense would necessarily involve
discovery pertaining to the issue of fault, including exploration of any and all potential causes of the disappearance
of Flight MH370. See Nolan v. Boeing Co., 762 F. Supp.
680, 683 (E.D. La. 1989), aff’d, 919 F.2d 1058 (5th Cir.
1990).
Two final points bear noting. First, except as discussed
in Part IV.A.2(c) below, the vast majority of the Montreal
Convention decedents appear to have no connections
whatsoever to the United States or Malaysia. 42 of the 45
decedents who are referenced in Motley Rice’s cases, in
particular, are citizens of China. (See, Compl., Zhang v.
Malaysia Airlines Berhad, 16cv1048, ECF No. 1, ¶¶ 42,
44–84; Compl., Kanan v. Malaysia Airlines System Berhad, 16cv1062, ¶ 8 (naming a Malaysian decedent); Compl.,
Smith v. Malaysia Airlines Berhad, 16cv0439, ECF No.
1, ¶¶ 41–42 (naming two American decedents).) The plaintiffs who are proceeding on behalf of these 42 individuals
appear to have brought these Montreal Convention claims
in the United States solely by virtue of Defendants AGCS
SE American and Haagen—alleged reinsurers of
MAS/MAB who purportedly do business in the United
States. (See Pls.’ Resp. in Opp’n to Def. MAB’s Mot. to
Dismiss Pls.’ Compls. on the Ground of Lack of Subject
Matter Jurisdiction Pursuant to the Montreal Convention,

52a
ECF No. 66 at 12– 13.) This means that most of the evidence related to the damages claimed in Motley Rice’s
cases will likely be located in China or Malaysia. And it is
no more convenient to have that evidence translated into
English and brought to the United States than it is to have
that evidence translated to Malay and brought to the Malaysian courts to be considered along with any other evidence pertaining to both damages and liability that the
parties will marshal in litigating the expanded universe of
issues that these Montreal Convention claims raise. See
In re Air Crash at Madrid, Spain, on Aug. 20, 2008, 893
F. Supp. 2d 1020, 1033 (C.D. Cal. 2011) (noting that “no
matter where these suits are tried, one side will face difficulty in gathering evidence and presenting witnesses for
its case”), amended on reconsideration in part sub nom.
In re Air Crash at Madrid, Spain, No. 2:10-ML-02135GAF, 2011 WL 2183972 (C.D. Cal. May 16, 2011), and aff’d
sub nom. Fortaner v. Boeing Co., 504 F. App’x 573 (9th
Cir. 2013).
The second residual point is the fact that, because
Plaintiffs have opted to sue both MAS and MAB (on the
grounds that MAB is, in effect, a successor to MAS), evidence regarding the contractual relationship between
these two entities is likely to be relevant to any determination of which entity is responsibility for the payment of
damages with respect to Plaintiffs’ Montreal Convention
claims. See Paleteria La Michoacana, Inc. v. Productos
Lacteos Tocumbo S.A. De C. V., 247 F. Supp. 3d 76, 88
(D.D.C. 2017) (explaining that a successor corporation
generally does not assume liabilities of predecessor unless, among other things, there was an agreement to transfer the liabilities). That evidence, too, will be undoubtedly
be located in Malaysia—yet another factor that weighs in
favor of dismissal of Plaintiffs’ Montreal Convention
claims on forum non conveniens grounds.

53a
c. The Fact That Some Of Plaintiffs’ Montreal
Convention Claims Involve Plaintiffs Or Decedents With United States Connections Is
Insufficient to Alter The Outcome
The strongest point that Plaintiffs make in favor of
maintaining the Montreal Convention claims against
MAS/MAB in United States courts is the fact that a plaintiff’s choic4e of forum generally controls, and that some of
the plaintiffs and/or decedents in the cases at issue here
have connections to the United States. (See Podhurst
FNC Opp’n at 21–22.) It is clear beyond cavil that, when
faced with a motion seeking dismissal based on forum non
conveniens, a court must grant deference to a plaintiff’s
choice of forum. See Piper Aircraft Co., 454 U.S. at 255.
The level of deference varies based on the nationality of
the plaintiff, with a foreign plaintiff being entitled to less
deference than a domestic plaintiff. Id. at 255–256; see
also Ravelo Monegro v. Rosa, 211 F.3d 509, 514 (9th Cir.
2000) (noting that “less deference is not the same thing as
no deference”). “The presence of American plaintiffs,
however, is not in and of itself sufficient to bar a district
court from dismissing a case on the ground of forum non
conveniens”; rather, a court must still conduct the Piper
Aircraft balancing test. Cheng v. Boeing Co., 708 F.2d
1406, 1411 (9th Cir. 1983); see also Pain, 637 F.2d at 795–
99 (holding that a district court did not abuse its discretion
in granting forum non conveniens motion, notwithstanding the presence of an American plaintiff, when aviation
accident took place in the North Sea).
Two of the Montreal Convention plaintiffs in this
MDL, Smith and Gaspard, are United States citizens who
are the personal representatives of the estates of decedent
passengers, and their choice of forum is therefore afforded
deference under Piper Aircraft. See Piper Aircraft Co.,
454 U.S. at 255. However, it is not readily apparent that
either Smith or Gaspard had any pre-accident connection

54a
to the decedents, and the possibility that they were selected solely for purposes of this litigation cases doubt on
the suggestion that their choice of forum warrants significant deference. (See Gaspard v. Malaysia Airlines Berhad, 16cv0419; Smith v. Malaysia Airlines Berhad,
16cv0439.) See also Piper Aircraft Co., 454 U.S. at 239
(noting that personal representative “was a legal secretary to the attorney who filed this lawsuit” and did “not
know any of the decedents or their survivors”). Plaintiff
Gaspard represents, among others, a family of three decedents, Rui Wang (who was employed by an American company and the provider of the family), Weiwei Jiao, and
Shuling Dai (collectively, the “Wang Decedents”). (See
Gaspard Compl., ECF No. 1, ¶¶ 3–7; Podhurst FNC Opp’n
at 33.) Plaintiff Smith represents, among others, Nicole
and Leo Meng, minor children who were United States citizens by birth and who resided with their parents in China.
(See Smith Compl., ECF No. 1, ¶¶ 39–42.) Smith also represents Meng Zhang, a Chinese citizen who held a United
States green card, and who was residing in China with her
new husband when she flew aboard Flight MH370. (See
id.; see Motley Rice Montreal Convention Opp’n at 6.) 24
Only one other Montreal Convention plaintiff has any
connection to the United States: Thomas Wood, who is a
United States citizen and the personal representative of
his brother, Flight MH370 decedent Philip Wood, who was
also a United States citizen. (See Wood v. Malaysia
The Meng children and Zhang are all Motley Rice plaintiffs, and
their counsel filed complaints on their behalf in three separate districts. Those complaints are the subject of a motion for leave to file a
consolidated amended complaint (see Pls.’ Mot. for Leave to File Consolidated Compl., ECF No. 24), which is yet another motion that is
mooted by the Court’s instant decision. For the purpose of the forum
non conveniens analysis, this Court has focused on Smith v. Malaysia
Airlines Berhad, 16cv0439, the complaint that contains the most allegations regarding connections to the United States.
24

55a
Airlines Berhad, 16-cv-0053.) This Court will afford
Thomas Wood’s choice of forum the highest degree of deference. See Piper Aircraft Co., 454 U.S. at 255. Decedent
Wood worked for IBM and resided in Texas until late
2010/early 2011, when he moved to China for a three-year
international assignment, following his separation from
his wife. (See Pls.’ Resp. to Malaysia Airlines’ Motion to
Dismiss for Lack of Subject Matter Jurisdiction, ECF No.
63, at 40.) While in China, Wood began a romantic relationship, and thereafter moved to Malaysia when he accepted
a two-year assignment with IBM-Malaysia in Kuala Lumpur. This assignment would have ended in February of
2016 (and could have been renewed for additional terms).
(See id. at 21 n.37, 40.)
Notably, the fact that all of the decedents were living
abroad (i.e., not in the United States) at the time of their
deaths is an additional consideration to be taken into account when determining what weight to give to the United
States connections that Plaintiffs have asserted in these
cases. See Varnelo v. Eastwind Transp., Ltd., No. 02-cv2084, 2003 WL 230741, at *12 (S.D.N.Y. Feb. 3, 2003) (noting the choice of forum of “an expatriate U.S. citizen living
abroad” is afforded a “diminished degree of deference”).
As the Second Circuit has explained, United States residence supports a plaintiff’s choice to litigate in the United
States “not because of chauvinism or bias in favor of U.S.
residents” but “rather because the greater the plaintiff’s
ties to the plaintiff’s chosen forum, the more likely it is that
the plaintiff would be inconvenienced by a requirement to
bring the claim in a foreign jurisdiction.” Wiwa v. Royal
Dutch Petroleum Co., 226 F.3d 88, 102 (2d Cir. 2000). Alternatively, where a plaintiff (or the decedent whom that
plaintiff represents) is (or was) located overseas, the inconvenience of having to litigate issues pertaining to damages and other matters in a non-U.S. forum is somewhat
lessened.

56a
With the relative degrees of deference that must be afforded to these U.S.-connected plaintiffs and/or decedents
in mind, this Court has undertaken to determine whether
the balance of the public and private interests discussed
above shifts. With respect to the Wang Decedents, the
United States’ interest in these claims is still minimal, as
the sole connection to this country (other than the citizenship of the personal representative) is the fact that the
Wang Decedents’ tickets were purchased through a USbased online travel agent. (See Gaspard Compl. ¶ 18(g).)
Likewise, the United States has a relatively minor interest
in claims associated with the death of Zhang, because although she was a United States green card holder, she had
been residing in China with her new husband in the years
prior to her death. (See Resp. to MAS’s and MAB’s Interrogs. for Passenger Meng Zhang, at Nos. 3–12, Ex. 51 to
Montreal Convention Mem., ECF No. 38-52.) By contrast,
the United States interest in the claims related to the
Meng children and Decedent Wood is substantial, because
these decedents are citizens of the United States. See Air
France, 760 F. Supp. 2d at 847 (acknowledging “the importance of making courts in this country available to
American citizens”).
In Air France, the court considered whether or not to
dismiss on forum non conveniens grounds Montreal Convention claims that had been brought by U.S.-citizen plaintiffs involving U.S.-citizen decedents, see Air France, 760
F. Supp. 2d 832, and was unmoved by the suggestion that
the citizenship status of the small number of represented
parties was sufficient to sway the analysis toward maintaining the lawsuits in the United States. The Air France
litigation arose from the crash over the Atlantic Ocean of
an Air France flight that had “left Brazil for France carrying a plurality of French citizens and just two Americans living abroad at the time of the crash[,]” and the Air
France plaintiffs had sued the American companies that

57a
manufactured component parts of the aircraft, among others, in United States courts. Id. at 845. In the context of
its forum non conveniens analysis, the court specifically
found that, while “the American interest here, ensuring
the quality of component parts on aircraft and protecting
the rights of two American citizens, is real and legitimate[,]” it was “less significant than the French interest.”
Id. (emphasis added).
So it is here. All told, the Montreal Convention cases
in this MDL involve only six U.S. citizens with a direct connection to the Flight MH370 tragedy, as either plaintiffs
or decedents. Among the hundreds of passengers on that
flight, only three were citizens of the United States (see
Part IV.A.2.a., supra), and while the United States undoubtedly has a strong public interest in the claims involving their deaths, its interest pales in comparison to Malaysia’s interest in litigating these claims. Malaysia’s public
interest includes not only an interest in the untimely
deaths of the Malaysian pilot and crew, but also an interest
in determining precisely what happened to Flight MH370,
given that a Malaysian airline owned, operated, and maintained the aircraft; the flight took off from an airport in
Malaysia for a destination outside the United States; and
it disappeared from radar when Malaysian air traffic controllers were handing off the flight. And Malaysian authorities made substantial investments of time and resources in the wake of this disaster: Malaysia conducted
extensive civil and criminal investigations, and changes in
Malaysian law led to the creation of a new national Malaysian airline. It is Malaysia’s strong interest in the events
that give rise to the claims at issue here that makes this a
distinctly Malaysian tragedy, notwithstanding the presence of the few Americans onboard Flight MH370. Thus,
just as the Air France court found that France had a
greater public interest in the Montreal Convention claims
concerning U.S. plaintiffs and decedents than the United

58a
States did, so too does this Court find that, on balance and
comparatively speaking, Malaysia has a greater public interest in the instant Montreal Convention claims, even
taking into account the United States citizenship of plaintiffs Wood, Smith, and Gaspard, and of Philip Wood and
the Meng children.
In addition to this public interest, this Court must also
consider the private interests that, as noted above, implicate the practicality of litigating a particular matter in one
forum or another. See Am. Dredging Co., 510 U.S. at 448
(requiring the court to consider, among other things, access to sources of proof, enforceability of judgment, and
the location of relevant evidence and witnesses). When
considering the Montreal Convention claims of plaintiffs
and decedents with connections to the United States, the
most substantial difference on the private interest front
could be the location of, and access to, evidence and witnesses regarding damages. However, no such differences
exist with respect to the Meng children who, while United
States citizens, spent almost all of their lives with their
parents in China. (See Resps. to MAS’s and MAB’s First
Set of Interrogs. for Bing Meng, at Nos. 2–3, Ex. 14 to
FNC Mem., ECF No. 37-16.) Zhang and the Wang Decedents are on somewhat different footing: Zhang had some
employment history in the United States and allegedly intended to return there, even though her most recent work
history appears to have been in China (see Motley Rice
Montreal Convention Opp’n at 6), and Rui Wang’s wages
from a U.S.-based employer supported the Wang Decedents (See Podhurst FNC Opp’n at 33). Likewise, evidence regarding damages in regard to Decedent Wood’s
estate and his heirs will likely be located in the United
States, given his United States citizenship and family connections, and his employment with IBM. (See Podhurst
FNC Opp’n at 32–33.)

59a
Nevertheless, as discussed in Part IV.A.2.b., supra,
the relevant evidence in this case extends beyond damages
and into the realm of causation. And as far as this Court
can tell, a substantial amount of this causation evidence is
located outside of the United States, including documentary items such as cargo records, personnel files, airline
maintenance records, manuals, air traffic control recordings, video recordings, and bank records, as well as witnesses, such as crew family members, air traffic controllers, cargo shippers, and maintenance technicians. See
Pain, 637 F.2d at 786–87. Cf. In re W. Caribbean Crew
Members, 632 F. Supp. 2d 1193, 1201–03 (S.D. Fla. 2009)
(denying forum non conveniens motion where plane was
located in United States for 19 years before crash, and relevant maintenance records were therefore located in the
United States). As explained, significant practical problems with gathering such evidence could arise in the context of both discovery and trial, even taking into account
that some of the damages evidence would be located in the
United States with respect to these claims. See Tazoe, 631
F.3d at 1335 (finding that district court did not abuse its
discretion in dismissing claims arising from death of an
American citizen in a plane crash that occurred in Brazil
where the defendant manufacturers’ “inability to compel
third-party witnesses or the production of documents
from those witnesses, and the inability to implead potentially liable third-parties, is both unusually extreme and
materially unjust”). Indeed, even where claims involving
United States parties are involved, courts considering forum non conveniens motions regularly find that “difficulties in obtaining testimony and evidence located in foreign
jurisdictions is a strong factor favoring forum non conveniens dismissal.” Torreblanca de Aguilar, 806 F. Supp. at
144; see, also, e.g., Clerides, 534 F.3d at 629–30; Lleras, 354
F. App’x at 587.

60a
To summarize, after considering the availability and
adequacy of Malaysia as an alternative forum for ligating
Plaintiffs’ Montreal Convention claims, balancing the relative public interests of Malaysia and the United States in
resolving these claims, and weighing the private interests
that inform whether litigating in Malaysia would be substantially more convenient than in the United States, this
Court has determined that the substantial and overriding
connections to Malaysia outweigh the connections these
claims have to the United States, such that forum non conveniens dismissal is warranted here.
B. On Balance, Malaysia Is A More Convenient Forum Than The United States For Litigating
Plaintiffs’ Wrongful Death And Products Liability Claims Against Boeing
Thirty-five of the cases currently pending in this MDL
assert wrongful death and products liability claims against
Boeing. (See Notes 14, 16–17, supra (listing 32 Podhurst
products liability cases and three Motley Rice products liability cases).) Podhurst and Motley Rice have filed these
cases on behalf of various plaintiffs. Five of the products
liability plaintiffs (Wood, Gaspard, Li Li, Smith, and
Keith) are United States citizens, as are three of the various decedents these plaintiffs represent (Philip Wood, Nicole Meng, and Leo Meng). One products liability plaintiff
resides in the United States (Yang Chen).25 In addition,
one of the decedents represented in the products liability
cases (Meng Zhang) held a United States green card.
While the public and private considerations with respect to these claims differ from those involved with the
Montreal Convention claims, this Court reaches the same
conclusion regarding the forum non conveniens analysis,
as explained below. Once again, the Court agrees with
25

See Chen v. The Boeing Co., 16cv1165.

61a
Boeing that these claims must be dismissed, because, on
balance and in light of the relevant factors, litigation of
these claims in the United States will be less convenient
than in Malaysia.
1. Malaysia Is An Available And Adequate Forum For Plaintiffs’ Wrongful Death And Products Liability Claims
Just as with Plaintiffs’ Montreal Convention claims,
this Court finds that Malaysia is an available and adequate
alternative forum for litigation of Plaintiffs’ wrongful
death and products liability claims against Boeing. See
Giro, 2011 WL 2183171, at *7; Simcox, 152 F.R.D. at 700;
Jayaraman, 1991 WL 61071, at *4. Plaintiffs do not contend that such legal claims are unavailable in Malaysian
courts. Cf. Domanus v. Lewicki, 645 F. Supp. 2d 697, 702
n.2 (N.D. Ill. 2009) (finding that Poland was not an adequate alternative forum where “Polish law does not recognize many of the causes of action asserted, including
shareholder derivative claims”). And Boeing has consented to being subjected to the jurisdiction of Malaysia’s
courts as a condition of the forum non conveniens dismissal of this matter. (See FNC Mem. at 22 & n.5.) Boeing
has further agreed to toll the statute of limitations with
respect to any such claims for 120 days (id.), and it is well
established that defendant concessions of this type undermine the argument that a foreign forum is not available
and/or is inadequate to litigate claims against the agreeing
party. See, e.g., Piper Aircraft Co., 454 U.S. at 254 n.22;
Pain, 637 F.2d at 785.
Once again, the Podhurst Plaintiffs do not dispute that
Malaysia is an available and adequate forum for the products liability claims that they seek to litigate. (See
Podhurst FNC Opp’n at 20 n.30.) The Motley Rice Plaintiffs object to dismissal in favor of Malaysia, on the
grounds that Boeing has not specifically agreed to

62a
“participate in U.S.-style discovery” in that jurisdiction,
and because the other defendants in this matter have not
provided assurances about participating in litigation in
Malaysia. (Motley Rice FNC Opp’n at 17.) But Motley
Rice has not pointed to any particular prejudicial deficiencies in Malaysia’s own fact-finding process that would indicate the inadequacy of such proceedings such that a concession in this regard is needed. Moreover, and in any
event, the fact that the United States may have a more robust discovery process than that of another country is not
sufficient to establish that the other forum is unavailable
or inadequate for forum non conveniens purposes. See,
e.g., FieldTurf USA Inc. v. TenCate Thiolon Middle E.,
LLC, No. 11-cv-50, 2011 WL 13234176, at *5 (N.D. Ga.
Aug. 8, 2011) (holding that Dubai was an adequate forum
even though its law “does not provide for oral testimony,
full discovery, or independent experts”).
Courts have long credited defendants’ representations
that they will submit to the jurisdiction of a foreign forum
for the purpose of forum non conveniens analysis, without
extensive evaluation of whether the procedural rules that
govern the course of litigation in the other forum are comparable to those applied in federal courts in the United
States. See, e.g., Melgares v. Sikorsky Aircraft Corp., 613
F. Supp. 2d 231, 246 (D. Conn. 2009); Jose v. M/V Fir
Grove, 801 F. Supp. 349, 352 (D. Or. 1991). And, here, Boeing has expressly represented that it will “agree to consent
to jurisdiction in Malaysia as a condition to dismissal[,]”
(FNC Mem. at 22)—a representation that this Court accepts, and deems sufficient with respect to the adequacy
issue. See Fortaner, 504 F. App’x at 580 (noting that the
requirement of an available and adequate alternative forum “is ordinarily satisfied when the defendant agrees to
submit to the jurisdiction of the alternative forum” (citation omitted)); see also Azima, 305 F. Supp. 3d at 173 (rejecting defendant’s forum non conveniens argument

63a
where defendant was “careful to avoid making any representation that it would necessarily consent to the [alternative court’s] jurisdiction with respect to the [plaintiff’s]
claims”).
2. The Balance Of The Public And Private Interests Weighs In Favor Of Dismissal Of These
Claims On Convenience Grounds
a. Malaysia’s Public Interest In These Products Liability Claims Is Generally Greater
Than That Of The United States
Boeing’s status as an aircraft manufacturing company
that is founded and headquartered in the United States
necessarily means that the United States has a significant
public interest in any products liability claims that are
brought against it. See Lueck, 236 F.3d at 1147 (noting
that “[t]he citizens of Arizona certainly have an interest in
the manufacturing of defective products by corporations
located in their forum”). But when a disaster like the one
at issue here occurs, the key question as far as the forum
non conveniens balancing is concerned is whether the significant public interest of the country that manufactured
the aircraft outweighs the public interest of the country
that maintained and operated the ill-fated plane, and
courts evaluating similar products liability ligation have
routinely considered the public interest of the carrier’s
country to be weighed most heavily in the context of their
consideration of forum non conveniens. See Schijndel v.
Boeing Co., 263 F. App’x 555, 557 (9th Cir. 2008) (finding,
in litigation arising from crash that occurred in Singapore,
that the district court did not abuse its discretion in granting forum non conveniens motion based on finding that
Singapore’s interest in litigation was greater, even though
“the aircraft and some components were manufactured in
the United States”) (internal quotation marks omitted);
see also Clerides, 534 F.3d at 630 (recognizing the interest

64a
of foreign countries “in regulating the use of allegedly defective products within their borders”).
One can certainly conceive of a case in which the interest of the country where the aircraft is manufactured
might be considered superior to that of the country where
the aircraft was maintained and operated—say, in a case
involving specific allegations of fact pertaining to a single
identified design or manufacturing defect that allegedly
caused the crash. See, e.g., D.F. by & through Amador v.
Sikorsky Aircraft Corp., No. 13-cv-0331, 2017 WL
4922814, at *2 (S.D. Cal. Oct. 30, 2017) (alleging that an
individual’s death was caused by a known defect in a helicopter’s wiring). But, here, Plaintiffs intend to proceed on
a res ipsa theory of causation. (See, e.g., Compl., Keith v.
The Boeing Co., 17cv0518, ECF No. 1-3, ¶ 58 (alleging that
“there are no reasonable causes and no evidence of other
causes for the disappearance of Flight MH370” beyond a
product defect); Compl., Wood v. Boeing Co., 16cv1149,
ECF No. 1-3, ¶¶ 44–45 (alleging that because the safety
investigation “has, to a reasonable degree of certainty,
foreclosed . . . pilot error, pilot suicide, terrorism or other
foul play, maintenance error, and weather” as the cause of
the disappearance of Flight MH370, “a reasonable inference that can be drawn from all of the available evidence
is that the disappearance of Flight MH370 was the result
of one or more defects in the manufacture and/or design of
the airplane”); see also Motley Rice FNC Opp’n at 8 (noting that “[t]he Malaysia investigation report found no
problems with the pilots and other crew, training, maintenance, security and cargo”).) And given that no one specific cause of the disappearance of Flight MH370 has been
claimed affirmatively, much less that a certain known design or manufacturing defect precipitated this accident,
this Court is hard pressed to find that the interests of the
United States in resolving the instant product-defect

65a
claims against Boeing outweigh what is, at its core, a Malaysian tragedy, for the reasons explained above.
Put another way, despite Plaintiffs’ general contention
that (by process of elimination) a mechanical problem with
the U.S.-manufactured Boeing aircraft must have caused
the events that give rise to their claims, “a defendant’s
manufacturing activities within the U.S. do not tilt the
public interest in favor of retaining jurisdiction where
overseas events are the primary catalyst for litigation initiated by foreign plaintiffs.” In re Air Crash Near Peixoto
De Azeveda, 574 F. Supp. 2d at 288; see also Air France,
760 F. Supp. 2d at 845 (explaining that “the American interest here, ensuring the quality of component parts on
aircraft and protecting the rights of two American citizens, is real and legitimate but less significant than the
French interest”); Clerides, 534 F.3d at 630 (noting that
while the “United States has an interest in regulating domestic companies, its interest is matched by the interests
of Greece and Cyprus in regulating the use of allegedly
defective products within their borders”). The same public interest factors discussed in Part IV.A.2.a., supra, that
weigh in favor of the dismissal of the MDL cases involving
Montreal Convention claims are equally applicable to the
MDL cases that involve wrongful death and products liability claims, because both sets of claims arise from the
same underlying set of facts. And under the circumstances presented here, there can be no dispute that Malaysia—which owned and operated the aircraft at issue as
part of its fleet of national carriers on the day of the plane’s
disappearance—has the primary public interest in litigating these products liability claims.

66a
b. There Are Compelling Private Interests On
Both Sides, But Much Relevant Evidence Is
Located Outside The United States, And
The Prospect Of Impleading Raises Complex Immunity Considerations That Weigh
In Favor Of Dismissal
The balancing of the private interests is a closer call in
the products liability context than it was with respect to
the Montreal Convention claims. Plaintiffs are asserting
manufacturing and design products liability claims directly against Boeing—a United States party—and it is
undeniable that most of the evidence pertaining to these
claims is inside the United States. This would suggest that
the private interest factor concerning the location of the
evidence points squarely in the direction of litigating the
claims in the United States; however, notably, Boeing has
agreed to make all such evidence available in Malaysia,
and has also agreed to pay any judgment that the Malaysian courts hand down. (See FNC Mm. at 22 n.5.)
Most importantly, “[e]ven if plaintiffs intend to base
their case on the negligence of defendants in the planning,
design, manufacture, assembly, testing, service and inspection of the aircraft and its engines, the evidence regarding the crash itself and the actions of [the airline] are
central to the tragedy.” Nolan, 762 F. Supp. at 683; see
also King v. Cessna Aircraft Co., 562 F.3d 1374, 1384 (11th
Cir. 2009) (affirming forum non conveniens dismissal
where evidence regarding causation was located in the foreign forum); Lueck, 236 F.3d at 1146 (affirming forum non
conveniens dismissal where foreign evidence relating to
the cause of the accident was “essential”). This is particularly so because Plaintiffs plan to proceed both on traditional negligence and strict products liability theories, and
on a res ipsa loquitur theory of causation, as noted above.
(See Mot. Hr’g Tr. at 38:4–8.) To succeed on the latter

67a
theory, Plaintiffs will have to rule out other likely causes
of the plane’s disappearance—e.g., weather, terrorism,
crew sabotage, and the like—and a substantial portion of
the evidence regarding possible alternative causes is located in Malaysia, as previously discussed. (See Part
IV.A.2.b., supra.) Similar evidence pertaining to the cause
of the disaster is likely located in Australia, the United
Kingdom, and other non-U.S. countries. (See Podhurst
FNC Opp’n at 15 (noting that the pieces of wreckage that
washed ashore were taken to Australia, and that the Inmarsat satellite communication data is located in the
United Kingdom).)26 Thus, when the nature of these claims
and the scope of the related litigation is carefully considered, the location-of-the-evidence aspect of the private interest factor tips in favor of dismissing the instant claims.
It is also clear that other types of relevant evidence—
including damages evidence—is largely located outside of
the United States. That is, while Plaintiffs’ counsel and
their retained expert witnesses are, in fact, located inside
the United States (see Motley Rice FNC Opp’n at 10;
Podhurst FNC Opp’n at 28), the vast majority of the decedents and the plaintiffs are from places other than Malaysia, such as China and Australia (see, e.g., Podhurst FNC
Opp’n at 17–18). Therefore, evidence pertaining to damages with respect to the products liability claims in these
MDL cases is located abroad—in locales other than the
United States or Malaysia—and, indeed, it might well be
more convenient and less costly to bring these claims to
trial in Malaysia, given that the places where most of the
damages evidence is likely to be are physically closer to
Malaysia than to the United States. See In re Air Crash
at Madrid, Spain, on Aug. 20, 2008, 893 F. Supp. 2d at
Plaintiffs maintain that the satellite communication data “is also in
the possession of Boeing in the United States” (Podhurst FNC Opp’n
at 14), but have not cited any evidence regarding this contention.
26

68a
1033 (noting that the costs of transporting witnesses to
trial would be lower if case were litigated in Spain). In
other words, the dearth of U.S.-based plaintiffs or decedents means that both Plaintiffs and Defendants will likely
face evidence-related burdens regardless of where the
products liability cases are litigated. See id.
An additional private interest factor related to the litigation of Plaintiffs’ products liability claims in the United
States is the extent to which Boeing could, or would, seek
to implead all potential defendants. See Piper Aircraft
Co., 454 U.S. at 259 (noting that the ability to implead the
estate of the pilot was a factor that weighed in favor of a
forum non conveniens dismissal). Whether or not Boeing
can implead MAS or MAB as third party defendants raises
questions of sovereign immunity, given that both MAS and
MAB appear to be agencies or instrumentalities of the Malaysian government for purposes of the Foreign Sovereign
Immunities Act. (See Plaintiffs’ Resp. to MAS’s Rule
12(b)(1) Mot. to Dismiss Under the Foreign Sovereign Immunities Act, ECF No. 64, at 10 n.6 (conceding that MAS
and MAB are agencies or instrumentalities of the Malaysian government but opposing dismissal based on sovereign immunity); see also FSIA Mem. at 12 (arguing that
MAS and MAB are presumptively immune from suit and
that Plaintiffs have not established that any FSIA exception applies).) And there appear to be other potentially
sovereign defendants: the plaintiffs in the Flight MH3 70related cases that are pending in Malaysia have named
several Malaysian government entities as defendants, including the Department of Civil Aviation, the Royal Malaysian Air Force, the Immigration Department of Malaysia, and the Government of Malaysia, as well as certain individual Malaysian officials. (See Singh Decl. ¶ 9.) Any effort to implead such defendants would substantially complicate any litigation involving the wrongful death and
products liability claims that are pending against Boeing

69a
in the United States. See Kryvicky v. Scandinavian Airlines Sys., 807 F.2d 514, 516 (6th Cir. 1986) (finding that
district court did not abuse its discretion in granting forum non conveniens dismissal where, among other things,
“the defendants could not implead Spanish aviation authorities or [foreign airline] in U.S. courts”).
The potential of intractable immunity questions that
might stymie Boeing’s ability to implead other defendants
raises the prospect of precisely the kind of “oppressive and
vexatious outcome that forum non conveniens dismissal is
designed to avoid”—namely, a manufacturer defendant
that is “unable to seek indemnification in the same action
in which they are being sued by foreign [p]laintiffs[.]” Air
France, 760 F. Supp. 2d at 847. And in the final analysis
of the private interest factors at issue, it is this circumstance that persuades this Court that, taken as a whole,
the private interest factors favor dismissal of these claims.
See Piper Aircraft Co., 454 U.S. at 259 (noting that “the
inability to implead potential third-party defendants” is a
factor that can weigh in favor of a forum non conveniens
dismissal); In re Air Crash Near Peixoto De Azeveda,
Brazil, on Sept. 29, 2006, 574 F. Supp. 2d at 289 (finding
that the “lack of jurisdiction in this forum over potentially
liable parties” was an “important factor[]” in favor of forum non conveniens dismissal).
c. Dismissal Is Warranted Even With Respect
To The Cases With Concrete Connections
To The United States
Finally, the Court has considered whether the fact that
some of the plaintiffs and decedents in these MDL products liability cases have concrete connections to the United
States impacts the forum non conveniens analysis, and for
the following reasons, it has determined that such ties do
not demand a different result. Thus, even when the products liability claims of U.S. plaintiffs and/or U.S. decedents

70a
are isolated and that status is taken into account, the
United States is still not a convenient forum for the litigation of manufacturing claims against Boeing related to the
Flight MH370 disaster.
The Wood lawsuit presents the closest call in this regard, given that there are U.S. parties on both sides, and
an American decedent, which suggests that much of the
relevant discovery involves evidence that is inside the
United States. (See Wood v. The Boeing Co., 16cv1149.)
But as previously explained, given the tort theories on
which Plaintiffs are proceeding, evidence and witnesses
pertaining to the aircraft, the crew, the events preceding
the disappearance, and the search will be indispensable to
litigating Plaintiffs’ claims. See Nolan, 762 F. Supp. at
683; King, 562 F.3d at 1384; Lueck, 236 F.3d at 1146. This
same evidence will likewise be necessary to resolve the
products liability claims that Plaintiff Li Li—a United
States citizen residing in China—and Plaintiff Yang
Chen—a Chinese citizen residing in the United States—
have brought on behalf of their deceased parents, who
were both Chinese citizens. (See Li v. The Boeing Co.,
16cv1128; Chen v. The Boeing Co., 16cv1165.) And just as
with the Montreal Convention claims, the United States’
strong public interest in securing a legal remedy for its
citizens—specifically, Decedent Wood and the Meng children—is nonetheless overshadowed by Malaysia’s overwhelming interest in the resolution of claims concerning
this national disaster. See In re Air Crash Near Peixoto
De Azeveda, 574 F. Supp. 2d at 288; Air France, 760 F.
Supp. 2d at 845; Clerides, 534 F.3d at 630.
The handful of other cases that have concrete connections to the United States concern attenuated relationships that do not give rise to a significant public or private
interest in having the claims litigated in the United States,

71a
for the reasons laid out above, in Part IV.A.2.c.27 The
Court does give some deference to the plaintiff’s choice of
forum when the products liability and wrongful death
claims are brought by, or on behalf of, American citizens,
just as with the Montreal Convention claims. But in this
Court’s view, even when Boeing is the defendant, the balance of the Piper factors weighs against litigation of these
claims in the United States. See, e.g., Fortaner, 504 F.
App’x at 580–81 (affirming forum non conveniens dismissal of products liability claims against Boeing); Nolan, 919
F.2d at 1069 (same).
V. CONCLUSION
At its core, this case is about the unexplained disappearance of a passenger plane operated by Malaysia Airlines as part of its national air carrier fleet following its
departure from a Malaysian airport. The disappearance
of Flight MH370 was the subject of a years-long investigation by Malaysian authorities, and while a host of other
countries undeniably participated and undoubtedly have
some interest in the legal claims that have been made in
the wake of this tragedy—including China, Australia, India, and the United States—these other points of connection do not alter the fundamental and substantial nexus
between this tragic incident and the country of Malaysia.
Plaintiffs Keith and Richards are United States citizens, and thus
their choice of forum is entitled to deference, but as with Plaintiffs
Gaspard and Smith, it appears that they may have no pre-accident
connections to the decedents they represent and may have been selected solely for purposes of this litigation. (See Part IV.A.2.c., supra.)
See also Piper Aircraft Co., 454 U.S. at 239. Plaintiff Chen is a resident
of the United States, but not a citizen, and Meng Zhang’s connection
to the United States is predicated on her status as a green-card holder
and her past work and residence in the United States. In the Gaspard
case, the Wang Decedents’ connection is premised on Gaspard’s citizenship, and Rui Wang’s employment with an American company,
even though he lived and worked overseas.
27

72a
In consideration of all of the relevant forum non conveniens factors, this Court has concluded that litigation in the
United States related to the Flight MH370 disaster is inconvenient, and that dismissal of the MDL cases in favor
of Malaysia is warranted. Thus, as reflected in the attached Order and subject to the conditions laid out
therein, Defendants’ joint motion for forum non conveniens dismissal is GRANTED, and the cases in this MDL
are DISMISSED without prejudice. Moreover, Defendants’ other threshold motions are DENIED as moot.
DATE: November 21, 2018

/s/ Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[November 21, 2018]
IN RE: AIR CRASH
OVER THE SOUTHERN
INDIAN OCEAN, ON
MARCH 8, 2014
This Document Relates To:

MDL Docket No. 2712
Misc. No. 16-1184 (KBJ)

ALL CASES
ORDER
For the reasons stated in the accompanying
Memorandum Opinion, it is hereby
ORDERED that Defendants’ Joint Motion to Dismiss
on the Ground of Forum Non Conveniens (ECF No. 37)
and Boeing’s Motion to Dismiss Newly Transferred Cases
(ECF No. 58) are GRANTED, and as a result, Plaintiffs’
cases1 are DISMISSED without prejudice. This dismissal
Wood v. Malaysia Airlines Berhad, 16cv0053; Gaspard v. Malaysia
Airlines Berhad, 16cv0419; Smith v. Malaysia Airlines Berhad, No.
16cv0429; Zhang v. Malaysia Airlines Berhad, 16cv1048; Kanan v.
Malaysia Airlines Sys. Berhad, No. 16cv1062; Huang v. Malaysia
Airlines Berhad. No. 16cv1063; Li v. The Boeing Co., 16cv1128; Xiao
v. The Boeing Co., 16cv1129; Gao v. The Boeing Co., 16cv1130; Feng v.
The Boeing Co., 16cv1131; Wang v. The Boeing Co., 16cv1132; Wang
v. The Boeing Co., 16cv1134; Pang v. The Boeing Co., 16cv1135; Liang
v. The Boeing Co., 16cv1136; Hu v. The Boeing Co., 16cv1137; Zhou v.
The Boeing Co., 16cv1138; Hu v. The Boeing Co., 16cv1139; Wang v.
1

(73a)

74a
is expressly conditioned on Defendants’ agreement to: (a)
submit to personal jurisdiction in Malaysia in actions
refiled there on or before March 21, 2019, by Plaintiffs in
MDL 2712; (b) toll any statutes of limitation that might be
applicable to such refiled actions until March 21, 2019; (c)
make available in any such refiled actions, at Defendants’
expense, all documents, witnesses, and other evidence that
the Malaysian courts deem relevant; and (d) each pay or
cause to be paid any damages awarded by the Malaysian
courts in such refiled actions, subject to any right of
appeal.
DATE: November 21, 2018 /s/Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

The Boeing Co., 16cv1140; Zhang v. The Boeing Co., 16cv1143; Tian
v. The Boeing Co., 16cv1144; Li v. The Boeing Co., 16cv1145; Shirath
v. The Boeing Co., 16cv1146; Jia v. The Boeing Co., 16cv1147; Gaspard
v. The Boeing Co., 16cv1148; Wood v. The Boeing Co., 16cv1149;
Santhanam v. The Boeing Co., 16cv1151; Huang v. The Boeing Co.,
16cv1152; Kolekar v. The Boeing Co., 16cv1153; Kanan v. The Boeing
Co., 16cv1159; Han v. The Boeing Co., 16cv1161; Zhang v. The Boeing
Co., 16cv1164; Chen v. The Boeing Co., 16cv1165; Kolekar v. The
Boeing Co., 16cv1166; Gaspard v. The Boeing Co., 16cv1296; Gaspard
v. The Boeing Co., 16cv1299; Zhang v. The Boeing Co., 16cv1306; Yuan
v. The Boeing Co., 16cv1307; Weeks v. The Boeing Co., 16cv1167;
Richards v. The Boeing Co., 17cv0503; Keith v. The Boeing Company,
17cv0518.

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-7193

September Term, 2019
1:16-mc-01184-KBJ
Filed On: February 28, 2020

In re: Air Crash Over the Southern Indian
Ocean on March 8, 2014,

Elizabeth Smith, As personal representative
of the Spouses, Next of Kin, Other Statutory
Beneficiaries, and the Estates of the MH370
Passengers (See Complaint for Statutory
Beneficiaries), et al.,
Appellants
Thomas Wood, Individually and as Personal
Representative of Phillip Talmadge Wood
(Deceased), et al.,
Appellees
v.
Malaysia Airlines Berhad, doing business as
Malaysia Airlines, et al.,
Appellees
Consolidated with 18-7195, 18-7196,
18-7197, 18-7198

(75a)

76a
BEFORE: Srinivasan, Chief Judge; Henderson*,
Rogers, Tatel, Garland, Griffith, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit
Judges; and Randolph, Senior Circuit
ORDER
Upon consideration of the petition for rehearing en
banc filed by Thomas Wood in No. 18-7197; the joint
petition for rehearing en banc filed by the Weeks
appellants in No. 18-7196 and the Gaspard appellants in
No. 18-7198, and the absence of a request by any member
of the court for a vote, it is
ORDERED that the petitions be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk
* Circuit Judge Henderson did not participate in this
matter.

